<html>
<title> - THE COMMERCIAL SATELLITE INDUSTRY: WHAT'S UP AND WHAT'S ON THE HORIZON</title>
<body><pre>[Senate Hearing 115-569]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-569

                  THE COMMERCIAL SATELLITE INDUSTRY: 
                  WHAT'S UP AND WHAT'S ON THE HORIZON

=======================================================================

                                HEARING

                              BEFORE THE 

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 25, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]                             


                Available online: http://www.govinfo.gov
                
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-753 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2641564966455355524e434a560845494b08">[email&#160;protected]</a>                                  
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 25, 2017.................................     1
Statement of Senator Thune.......................................     1
    Prepared statement...........................................     2
Statement of Senator Nelson......................................     3
Statement of Senator Wicker......................................   112
Statement of Senator Sullivan....................................   114
Statement of Senator Cortez Masto................................   115
Statement of Senator Hassan......................................   117
Statement of Senator Gardner.....................................   121
Statement of Senator Inhofe......................................   123
Statement of Senator Peters......................................   125
Statement of Senator Blumenthal..................................   127
Statement of Senator Markey......................................   129

                               Witnesses

Patricia Cooper, Vice President, Satellite Government Affairs, 
  Space Exploration Technologies Corp. (SpaceX)..................     5
    Prepared statement...........................................     7
Mark Dankberg, Founder and Chief Executive Officer, ViaSat, Inc..    17
    Prepared statement...........................................    19
Stephen Spengler, Chief Executive Officer, Intelsat..............   103
    Prepared statement...........................................   104
Greg Wyler, Founder and Executive Chairman, WorldVu Satellites 
  Limited (OneWeb)...............................................   107
    Prepared statement...........................................   109

                                Appendix

Response to written questions submitted by Hon. Maggie Hassan to:
    Patricia Cooper..............................................   141
    Mark Dankberg................................................   142
    Stephen Spengler.............................................   144
Response to written questions submitted to Greg Wyler by:
    Hon. Cory Booker.............................................   145
    Maggie Hassan................................................   146

 
 THE COMMERCIAL SATELLITE INDUSTRY: WHAT'S UP AND WHAT'S ON THE HORIZON

                              ----------                              


                      WEDNESDAY, OCTOBER 25, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Nelson, Wicker, 
Fischer, Sullivan, Inhofe, Johnson, Capito, Gardner, Young, 
Cantwell, Klobuchar, Blumenthal, Markey, Peters, Baldwin, 
Hassan, and Cortez Masto.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning. Welcome to today's hearing on 
the state of the commercial satellite industry and the promises 
of next-generation satellite technology to improve the lives of 
Americans. I believe we're at a critical moment in the 
development of satellite capability, and I'm excited to hear 
from our panel of distinguished witnesses today.
    Satellite services available today offer residential 
broadband at speeds substantially greater than those available 
just a few years ago--download speeds that meet the Federal 
Communications Commission's definition of advanced 
telecommunications capability, and in some cases, without the 
strict data cap limits that have vexed users of satellite 
broadband in the past. Much of our television broadcast 
programming is delivered to broadcasters by satellite with 
extraordinary reliability, and millions of Americans receive 
their video service through direct broadcast satellite.
    This summer, the FCC for the first time authorized access 
to the U.S. market to a provider using a proposed constellation 
of 720 satellites. OneWeb received approval to enter the U.S. 
market with an array of satellites to provide global, high-
speed broadband, including in remote and hard-to-serve areas. 
For comparison, there are about 1,000 satellites total in 
operation today. This new type of service would place 
satellites in a much lower orbit than many of the satellites 
currently in operation.
    Similarly, SpaceX seeks to bring its satellite expertise to 
bear with a proposal to deploy a constellation of thousands of 
satellites to provide high-speed broadband. If realized, these 
ambitious proposals could completely change consumer access to 
broadband in rural areas as well as cities across the country 
and around the world.
    Satellite capability can also play a critical role in 
establishing communication after natural disasters, and it has 
been used by the Red Cross and others as part of the effort to 
reconnect the residents of Puerto Rico after the devastation 
caused by Hurricane Maria, as well as those affected by 
hurricanes in Texas and Florida.
    As with the wireless services this Committee has examined 
at numerous hearings, spectrum is critical to satellite 
services. As the value of spectrum has skyrocketed with 
America's increasing demand for broadband, spectrum that 
previously had little value for mobile broadband use now faces 
competing demands.
    It is essential that any evaluation of these competing 
demands accurately consider the full range of spectrum uses and 
how best to deliver broadband and other services to the 
American people. The specifics of how to balance such demands 
in the public interest--things like allocating spectrum between 
services and between licensed and unlicensed use; setting 
appropriate interference levels between terrestrial and 
satellite uses; and determining the size, number, and location 
of exclusions zones--are as important as they are complex. 
However, they are not the subject of today's hearing, as the 
FCC is addressing those matters in the ongoing Spectrum 
Frontiers proceeding and elsewhere.
    But it is important to set the broad parameters of this 
discussion. We must ensure that next-generation technologies 
rise or fall on their merits, including their efficiency in the 
use of spectrum, and ultimately their ability to meet the 
demands of American households for reliable high-speed 
broadband.
    Today we will have an opportunity to hear from some of the 
leaders and innovators in the field who are redefining 
satellite capability and who can explain what satellite 
services can offer to ongoing efforts to make broadband more 
available to all parts of the country and the world.
    Wireline service, fixed and mobile wireless service, and 
satellite service all have a role to play in connecting 
Americans to next-generation broadband service.
    Understanding satellite capability and the potential of 
next-generation satellite deployments will help inform this 
Committee regarding the costs and benefits of spectrum 
allocations, spectrum sharing, and related technology-neutral 
policies, among other things.
    So I am pleased that we have such a distinguished panel to 
address these matters today, and I look forward to hearing 
their thoughts.
    [The prepared statement of Senator Thune follows:]

 Prepared Statement of Hon. John Thune, U.S. Senator from South Dakota
    Good morning. Welcome to today's hearing on the state of the 
commercial satellite industry and the promises of next-generation 
satellite technology to improve the lives of Americans. I believe we 
are at a critical moment in the development of satellite capability, 
and I am excited to hear from our panel of distinguished witnesses 
today.
    Satellite services available today offer residential broadband at 
speeds substantially greater than those available just a few years 
ago--download speeds that meet the Federal Communications Commission's 
definition of ``advanced telecommunications capability''--and in some 
cases without the strict data cap limits that had vexed users of 
satellite broadband in the past. Much of our television broadcast 
programming is delivered to broadcasters by satellite with 
extraordinary reliability, and millions of Americans receive their 
video service through direct broadcast satellite.
    This summer, the FCC for the first time authorized access to the 
U.S. market to a provider using a proposed constellation of 720 
satellites. OneWeb received approval to enter the U.S. market with an 
array of satellites to provide global, high-speed broadband, including 
in remote and hard-to-serve areas. For comparison, there are about 1000 
satellites total in operation today. This new type of service would 
place satellites in a much lower orbit than many of the satellites 
currently in operation. Similarly, SpaceX seeks to bring its satellite 
expertise to bear with a proposal to deploy a constellation of 
thousands of satellites to provide high-speed broadband. If realized, 
these ambitious proposals could completely change consumer access to 
broadband in rural areas as well as cities across the country and 
around the world.
    Satellite capability can also play a critical role in establishing 
communication after natural disasters, and has been used by the Red 
Cross and others as part of the effort to reconnect the residents of 
Puerto Rico after the devastation caused by Hurricane Maria, as well as 
those affected by hurricanes in Texas and Florida.
    As with the wireless services this Committee has examined at 
numerous hearings, spectrum is critical to satellite services. As the 
value of spectrum has skyrocketed with America's increasing demand for 
broadband, spectrum that previously had little value for mobile 
broadband use now faces competing demands.
    It is essential that any evaluation of these competing demands 
accurately consider the full range of spectrum uses and how best to 
deliver broadband and other services to the American people. The 
specifics of how to balance such demands in the public interest--things 
like allocating spectrum between services and between licensed and 
unlicensed use; setting appropriate interference levels between 
terrestrial and satellite uses; and determining the size, number, and 
location of exclusion zones--are as important as they are complex. 
However, they are not the subject of today's hearing as the FCC is 
addressing those matters in the ongoing Spectrum Frontiers proceeding 
and elsewhere.
    But it is important to set the broad parameters of this discussion. 
We must ensure that next-generation technologies rise or fall on their 
merits, including their efficiency in the use of spectrum, and 
ultimately their ability to meet the demands of American households for 
reliable, high-speed broadband.
    Today we will have an opportunity to hear from some of the leaders 
and innovators in the field who are redefining satellite capability and 
who can explain what satellite services can offer to ongoing efforts to 
make broadband more available to all parts of the country and the 
world. Wireline service, fixed and mobile wireless service, and 
satellite service all have a role to play in connecting Americans to 
next-generation broadband service.
    Understanding satellite capability and the potential of next-
generation satellite deployments will help inform this Committee 
regarding the costs and benefits of spectrum allocations, spectrum 
sharing, and related technology-neutral policies, among other things. I 
am pleased that we have such a distinguished panel to address these 
matters today, and look forward to hearing their thoughts.

    The Chairman. And I recognize Senator Nelson for his 
opening statement.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    Well, this is an exciting time because communications 
satellites are essential links in our globally connected world. 
They bounce television signals all over the planet and provide 
voice communication and Internet access to remote areas. And in 
a recognition of satellites' resiliency and reliability, first 
responders and those in disaster areas, like Florida after a 
hurricane, Texas, Puerto Rico, the Virgin Islands, they rely on 
satellite systems as their lifeline when other communications 
systems are down.
    So the next generation of satellite-based communications 
systems holds even more promise. Large constellations, 
thousands of satellites, will provide broadband communications 
that rival the terrestrial counterparts, and it's going to make 
access even more affordable for broadband Internet. It's going 
to become a reality that broadband Internet in rural areas and 
remote areas that the terrestrial networks don't reach. Other 
constellations promise imaging services that could advance key 
Earth and climate science initiatives. And that's just the 
beginning of it.
    Much of this new interest and investment in space is coming 
from the private sector. In fact, some have begun to call this 
the second great Space Age. And as it was for the first great 
Space Age, the epicenter--and I hate to be parochial here--the 
epicenter----
    [Laughter.]
    Senator Nelson.--is going to be the Cape. So goes----
    Senator Cantwell. [Clears throat.]
    Senator Nelson. So goes--well, we'll let you do all your 
manufacturing out there----
    [Laughter.]
    Senator Cantwell. We'll take--we'll take it, we'll take it.
    Senator Nelson.--Senator Cantwell.
    But as it was in the first great Space Age, so it now is in 
the commercial launch business. And thanks in no small part to 
the efforts of some of the companies here today and to our 
commitment to an ambitious civil and national security space 
program, the Cape is coming alive. The space industry has 
brought millions of dollars of investment to this country, 
along with thousands and thousands of jobs, lots of economic 
benefits, and a lot of spin-offs from the technology that is 
developed for the space program.
    And so as we have been working with NASA, the FAA, and the 
Air Force, and our colleagues here in Congress, we are paving 
the way to a dramatic increase in commercial space activity at 
the Cape. And when I say ``the Cape,'' that's the generic term, 
not just the physical Cape Canaveral, which is the Air Force 
station, but it also includes the Kennedy Space Center and the 
commercial activities that are going on there, which are very 
significant.
    So take, for example, the commanding general of the 45th 
Space Wing, General Monteith, he told me recently that they now 
have the capability of supporting two launches in one day. Now, 
in the past, that could have never happened. In large part, 
that, in fact, is due to the autonomous destruct, and you don't 
have to have an Air Force lieutenant sticking there with his 
finger on the destruct button, but you have the autonomous 
destruct if a rocket were to go off the trajectory that it's 
supposed to be on, threatening populated areas.
    And over the coming years, these launches are going to be 
able to deliver thousands of new satellites to orbit, cargo and 
crews to the International Space Station, and eventually new 
technologies, like in-space manufacturing. And on top of all 
that, we are building the vehicles that will return humanity to 
deep space. And, ladies and gentlemen, we're going to Mars, and 
the beginning of that is in 2 years with the launch of the 
largest rocket, most powerful rocket ever, the SLS with its 
spacecraft Orion. And that's just 2 years away.
    So suffice it to say this, in fact, is not only an exciting 
time, it's a critical time, for the space program and space 
commercialization as well. And that's why it's such an 
important time to have our space agency led by an experienced 
and competent professional. The agency has not faced this 
critical of an inflection point since the Apollo program. If we 
stumble now, the impacts of our civil, commercial, and national 
space capabilities could be felt for decades to come.
    And I want to thank the witnesses for being here. This is 
going to be an exciting discussion.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson. And we have lots 
of wide open space and uncongested air space in South Dakota, 
too----
    [Laughter.]
    The Chairman.--so if you want to bring any of that 
technology our way, we welcome it.
    We have a great panel, as you pointed out today. We have 
Ms. Patricia Cooper, who is the Vice President of Satellite 
Government Affairs at SpaceX; Mr. Mark Dankberg, who is the 
Chief Executive Officer of ViaSat; Mr. Stephen Spengler, who is 
the CEO of Intelsat; and Mr. Greg Wyler, who is the Founder and 
Executive Chairman of OneWeb.
    So thank you all for being here. We'll start on my left, 
and your right, with Ms. Cooper, and then proceed. And if you 
would all, if you can, limit your oral remarks to about 5 
minutes, it will give us optimum time to ask questions. And 
we'll make sure that all of your remarks get made part of the 
written record of this hearing. So thank you for being here.
    Ms. Cooper.

         STATEMENT OF PATRICIA COOPER, VICE PRESIDENT,

                 SATELLITE GOVERNMENT AFFAIRS,

         SPACE EXPLORATION TECHNOLOGIES CORP. (SPACEX)

    Ms. Cooper. Mr. Chairman, Ranking Member Nelson, and 
members of the Committee, I am pleased to be back today 
representing SpaceX and my more than 6,000 colleagues who are 
revolutionizing space technologies. Mr. Chairman, there's a 
space renaissance underway, and SpaceX is proud to be at the 
forefront of innovation.
    My testimony today will outline SpaceX's plans to harness 
the platform of space for a new approach to broadband delivery. 
I will also recommend actions that the Committee can take to 
foster innovation, by streamlining regulations, driving 
efficient spectrum use, and protecting the safety of space.
    SpaceX is designing, developing, building, and launching a 
constellation of over 4,000 satellites operating close to the 
Earth. We have designed our constellation to achieve an 
ambitious and compelling goal, connecting the hundreds of 
millions of Americans and billions of global citizens to high-
speed broadband.
    Our direct-to-consumer focus drives the large scale of our 
system, featuring substantial on-orbit capacity and to keep 
pace as broadband demand grows, and sophisticated techniques 
for frequency reuse.
    From the outset, our constellation planning aimed to push 
the edge of innovation so that we can groom our coverage to 
match the peaks and valleys of broadband demand, interoperate 
flexibly with other users, and protect the space environment. 
Underlying these plans are the credentials that SpaceX has 
built over 15 years that demonstrate our capability to 
manufacture and operate complex space systems with 
unprecedented innovation, efficiency, scale, and affordability.
    Unlike many other aerospace firms, SpaceX is heavily 
vertically integrated. We build our Falcon rockets and our 
Dragon spacecraft in-house from tip to toe, including 
propulsion systems, structures, avionics, and launch, all 
within the U.S.
    Our space and launch heritage and our drive to innovate 
gives us a distinct edge in deploying our ambitious satellite 
project. SpaceX has successfully launched 42 flights of the 
Falcon 9, including 15 this year alone, landed 18 first stages 
and reused 3, and flown 13 supply missions to the International 
Space Station using our Dragon spacecraft. We will bring this 
experience to bear in our satellite project.
    In space, our constellation will use dynamic antennas and 
optical links between the satellites to form an efficient mesh 
network. These advancements will allow us to reuse frequencies 
many times over to ultimately deliver far greater broadband 
capacity to consumers. As a company, we are deeply committed to 
maintaining a debris-free environment in space, and our 
satellite system has been thoughtfully designed to meet or 
exceed all existing requirements for safety of operations in 
space and upon deorbit.
    On the ground, we are producing affordable, easy-to-install 
end user terminals that all but remove the incremental cost of 
new users joining our network. Here we avoid the dollars-per-
mile terrestrial build-out costs and other obstacles that have 
made terrestrial broadband connections cost prohibitive for so 
many American communities.
    The coming low-orbiting constellations hold enormous 
potential to finally bring broadband connectivity to all 
corners of America at speeds and latencies that today are 
available really only in the most populated areas.
    Mr. Chairman, we lay out an ambitious goal, and we could 
use the Committee's help. To summarize my written statement, we 
urge the Committee to continue its work to modernize the 
regulatory framework for commercial launch operations, both at 
the FAA and at the FCC. Launch is the critical path to 
deploying satellite constellations, and licensing rules and 
spectrum allocations must be updated to reflect that new pace 
and number of launches. SpaceX is proud to launch our 
constellation from U.S. soil on American-made SpaceX rockets.
    The Committee should endorse rules that foster spectrum 
sharing and technology advancement to make the best use of the 
airwaves. The FCC has already taken an important step by 
updating its rules for such satellite constellations, 
rightfully expecting operators to negotiate among themselves 
for spectrum sharing. Unfortunately, not all operators have 
chosen to invest in available technologies for spectrum 
efficiency. The Committee has an important oversight function 
to ensure that the rules of the road incentivize and support 
smart technology that can interoperate with other users on 
orbit and on the ground.
    To protect the space environment, the Committee should 
encourage closer coordination among the many Federal agencies 
responsible for orbital safety policies and regulation. 
Congress should also consider additional investments in the 
Nation's infrastructure to track orbital objects even more 
precisely.
    Finally, we ask for the Committee's vigilance to assure 
tech neutrality in any and all legislation or Federal programs 
designed to expand broadband infrastructure. Blanket exclusions 
of any qualifying technology from existing programs, like the 
Connect America Fund, should be rescinded so that new satellite 
constellations can be harnessed for high-quality broadband 
connectivity in every corner of America.
    This is an exciting and dynamic time in the satellite 
industry. I thank the Committee for the opportunity to be here 
today and look forward to any questions.
    Thank you.
    [The prepared statement of Ms. Cooper follows:]

   Prepared Statement of Patricia Cooper, Vice President, Satellite 
   Government Affairs, Space Exploration Technologies Corp. (SpaceX)
    Mr. Chairman, Ranking Member Nelson, and Members of the Committee:

    Thank you for the opportunity to participate in today's hearing. We 
appreciate the Committee's interest in exploring how advanced satellite 
technologies can expand broadband access within the United States and 
the policies that would foster that capability. SpaceX also appreciates 
that the Committee recognizes the potential of a new generation of 
U.S.-based low-Earth orbit (``LEO'') or non-geostationary satellite 
orbit (``NGSO'') satellite broadband system as an integral part of any 
strategy to augment high-speed Internet connectivity nationwide. NGSO 
satellite constellations intend to leverage emerging technologies in 
space and on the ground to provide reliable, high-speed, and affordable 
broadband service to customers throughout the United States and abroad.
    SpaceX was founded in 2002 with the express goal of dramatically 
improving the reliability, safety, and affordability of space 
transportation. Today, SpaceX today is the world's largest launch 
services provider, measured by missions under contract and cadence of 
launch, with 42 successful Falcon 9 launches, including 15 in 2017 
alone.
    SpaceX has deployed over 65 commercial communications satellites 
since 2010. In addition to commercial satellite operators, SpaceX 
supports a diverse and growing set of satellite and space customers, 
including NASA, the Department of Defense, and allied international 
governments. We have signed contracts for nearly 70 missions on 
manifest, representing more than $10 billion. Under one of the most 
successful public-private programs ever undertaken with NASA, SpaceX 
also supports the Nation's civil space program through routine cargo 
resupply missions with our Dragon spacecraft to the International Space 
Station (ISS). Next year, we will have the awesome responsibility of 
launching NASA astronauts to space from U.S. soil for the first time 
since the Space Shuttle was retired in 2011. SpaceX is also a certified 
provider to the Department of Defense for national security space 
launch.
    Leveraging our experience in space launch system and spacecraft 
design, development, production, and on-orbit operations, SpaceX is 
developing an innovative NGSO constellation. Our system is designed to 
reach directly to end users, and provide global broadband services at 
speeds, latencies and prices on par with terrestrial alternatives 
available in metropolitan communities. Accordingly, we filed 
applications with the Federal Communications Commission (``FCC'') in 
November 2016 and April 2017 that detail those plans.
    My testimony today will describe SpaceX's planned satellite 
constellation, including our capabilities and timelines, as well as 
offer a number of recommendations for the Committee's consideration to 
streamline regulatory processes, maximize planned government investment 
to accelerate broadband deployment, and ensure a safe, collaborative 
operating environment in space. Specifically, my testimony today will 
focus on the following areas:

  (1)  Launch. The importance of low cost launch enabled by rapid 
        reusability and robust launch infrastructure to making large-
        scale, space-based broadband Internet services more viable 
        today than ever before, and recommendations to improve the 
        launch licensing regulatory framework both at the FCC and the 
        Federal Aviation Administration (FAA);

  (2)  Spectrum Efficiency. Recommendations to ensure the efficient use 
        of spectrum, including potential regulatory incentives for 
        systems that invest in technologies that effectively share 
        spectrum. The Committee should take proactive steps to 
        encourage and reward companies that utilize and advance 
        technologies that result in maximum spectrum sharing and 
        efficiency.

  (3)  Technology-Neutral Programs. The need to update eligibility 
        requirements for nationwide broadband infrastructure 
        initiatives to ensure they are truly technology neutral, and do 
        not needlessly preclude satellite systems with equivalent or 
        better service from competing against more traditional 
        broadband providers. This hearing is an important forum to 
        review how satellite broadband has improved and can contribute 
        to the Nation's connectivity goals, and how to incorporate such 
        services into any national infrastructure initiative.

  (4)  Space Safety. The importance of ensuring that large satellite 
        constellations will employ robust orbital debris and space 
        safety protocols, including high reliability for individual 
        spacecraft; the speedy, planned deorbit of satellites at the 
        end of the useful life; the ability to implement active 
        collision avoidance throughout a satellite's life; and 
        transparency and information sharing.
Vertically Integrated Approach to Manufacturing and Extensive Space 
        Operations Experience
    As the leading domestic commercial space launch provider, SpaceX 
has restored the U.S. as a leader in global commercial satellite launch 
by percentage of market share. In developing its fleet of highly-
reliable, affordable, and innovative launch vehicle systems, SpaceX has 
invested billions of private capital in sophisticated manufacturing 
processes, engineering and design know-how for space and launch 
systems, the infrastructure needed to launch satellite payloads into 
orbit, and technologies to make launch more affordable. These 
manufacturing, engineering and design capabilities are trusted by the 
U.S. civil and national security space community, commercial satellite 
operators, and international governments.
    Looking forward, SpaceX intends to leverage its fifteen years of 
experience in space to develop and deploy a cost-effective and 
sophisticated broadband satellite constellation. Our vertically-
integrated approach to this initiative--linking design, development, 
production, launch, and operations--lends a unique capability to 
address the challenges that stymied past generations that have 
considered low-earth orbiting communications constellations from space.
    SpaceX's proven core competency is the manufacturing of complex 
space systems with increased efficiency, scale, and affordability. 
Here, SpaceX has a vertically-integrated approach to manufacturing 
uncommon within the aerospace industry. For Falcon, SpaceX manufactures 
over 70 percent of the value of the Falcon 9 in-house, including the 
first-and second-stage propulsion systems (Merlin 1D and MVacD), the 
tanks, composite structures, payload fairings, avionics, etc. 
Similarly, SpaceX produces the autonomous Dragon spacecraft in house, 
including the on-board propulsion systems (Draco and SuperDraco), 
pressure vessel, avionics, and all other major subsystems and 
components. SpaceX also has extensive test facilities at our Rocket 
Development facility in McGregor, Texas.
    SpaceX will carry this vertical approach to design, manufacturing, 
and test into our satellite broadband constellation. SpaceX expects to 
manufacture in-house the majority of each spacecraft, leveraging the 
experience we have gained with Falcon and Dragon in manufacturing and 
specific systems, such as propulsion systems, avionics, and solar 
arrays, among others. We are uniquely positioned to apply these proven 
methods of reliability and cost-effectiveness to our planned broadband 
satellite constellation.
    SpaceX's satellite constellation will also benefit from the 
company's extensive space operations experience, drawn from the Falcon 
9 launch vehicle's 42 successful flights, 18 successful fist-stage re-
entries and landings, and over 13 Dragon flights to and from the 
International Space Station (ISS). SpaceX can build upon the optimized 
guidance, navigation, and control (``GNC'') systems that allow us to 
land our first-stage boosters on land and at sea with pinpoint 
accuracy. Similarly, our deep experience with orderly and safe de-orbit 
through routine Dragon missions to the ISS has informed and enriched 
careful and detailed on-orbit operations and de-orbit planning for the 
satellite constellation. SpaceX is also drawing on the operational 
experience it has built with every Federal agency working on space-
related issues--including FCC, FAA, NASA and DOD--to prepare and 
coordinate for the satellite constellation undertaking. This unique 
manufacturing, operational, and cross-agency engagement will advance 
the planning and operations of the satellite broadband constellation.
II. Expanding Broadband Access and Bridging the Digital Divide
    SpaceX sees a robust market of continuously-growing demand for 
high-speed broadband both in the United States and worldwide. Connected 
consumers continue to increase requirements for speed, capacity, and 
reliability. And the volume of traffic flowing over the world's 
networks continues to skyrocket, with one vendor estimating that annual 
global Internet Protocol (``IP'') traffic surpassed the zettabyte 
threshold in 2016--meaning that over 1,000 billion gigabytes of data 
was exchanged worldwide last year.\1\ By 2020, that figure is projected 
to more than double (reaching a level nearly 100 times greater than the 
global IP traffic in 2005), global fixed broadband speeds will nearly 
double, and the number of devices connected to IP networks will be 
three times as high as the global population.\2\
---------------------------------------------------------------------------
    \1\ Cisco Visual Networking Index: Forecast and Methodology, 2015-
2020, at 1 (June 6, 2016), available at http://www.cisco.com/c/en/us/
solutions/collateral/service-provider/visual-networking-index-vni/
complete-white-paper-c11-481360.pdf; see also http://blogs.cisco.com/
sp/happy-zettabyte-day-2016. To fathom the volume of a zettabyte, if 
one byte is a litter, then a zettabyte is the equivalent of 7080 
Pacific Oceans. See id.
    \2\ Ibid.
---------------------------------------------------------------------------
    However, as the Committee is aware, millions of Americans outside 
of limited urban areas lack basic, reliable access to broadband--even 
as worldwide demand for data skyrockets. We note a few important facts 
about the availability and quality of broadband access in the United 
States and worldwide:

  --  According to the FCC, 34 million Americans lack access to 25 
        megabits per second (``Mbps'') broadband service, and 47 
        percent of the Nation's students lack the connectivity to meet 
        the FCC's short-term goal of 100 Mbps per 1,000 students and 
        staff. \3\
---------------------------------------------------------------------------
    \3\ Federal Communications Commission, 2016 Broadband Progress 
Report, (January 28, 2016), GN Docket No. 15-191, available at https://
apps.fcc.gov/edocs_public/attachmatch/FCC-16-6A1.pdf.

  --  The FCC has further noted that ``there continues to be a 
        significant disparity of access to advanced telecommunications 
        capability across America with more than 39 percent of 
        Americans living in rural areas lacking access to advanced 
        telecommunications capability, as compared to 4 percent of 
        Americans living in urban areas.'' \4\
---------------------------------------------------------------------------
    \4\ Ibid.

  --  Connectivity levels are even lower for tribal communities, with 
        ``approximately 41 percent of Americans living on Tribal lands 
        lacking access to advanced telecommunications capability.'' \5\
---------------------------------------------------------------------------
    \5\ Ibid.

  --  In addition, nearly 10 million Americans living in non-rural 
        areas also lack basic access to high-speed Internet service. As 
        a general matter, the U.S. continues to lag behind other 
        developed nations in both its broadband speed and in price 
---------------------------------------------------------------------------
        competitiveness.

  --  Even in urban areas of the United States, a majority of Americans 
        lacks more than a single fixed broadband provider from which to 
        choose and may seek additional competitive options for high-
        speed service.\6\ According to the FCC, ``only 38 percent of 
        Americans have more than one choice of providers for fixed 
        advanced telecommunications capability,'' with only ``13 
        percent of Americans living in rural areas having more than one 
        choice of providers of these services compared to 44 percent of 
        Americans living in urban areas.'' \7\
---------------------------------------------------------------------------
    \6\ FCC, 2016 Broadband Progress Report.
    \7\ Ibid.

  --  Beyond the United States, the United Nations Broadband Commission 
        for Sustainable Development recently noted that 4.2 billion 
        people, or 57 percent of the world's population, are simply 
        ``offline'' for a wide range of reasons--but predominately 
        because the necessary connectivity is not present or not 
        affordable.\8\
---------------------------------------------------------------------------
    \8\ Broadband Commission for Sustainable Development, ``Open 
Statement from the Broadband Commission for Sustainable Development to 
the UN High-Level Political Forum (HLPF)'' (July 11, 2016), available 
at http://broadbandcommission.org/Documents/publications/HLPF-
July2016.pdf.
---------------------------------------------------------------------------
III. NGSO Satellite Constellations Offer Unique Advantages in Expanding 
        Broadband Access
    Satellites have traditionally served at the forefront of remote and 
rural connectivity, and often have helped to alleviate inequities in 
the availability of communications services, in part due to geographic 
reach. Historically, satellites first revolutionized the availability 
of international telephony, then pioneered global distribution of video 
content. More recently, satellite systems have introduced broadband 
connectivity for mobile platforms, such as aircraft and ships--
establishing and supporting new markets and enhancing those businesses 
and their customer experience.
    New constellations of sophisticated satellites operating close to 
the Earth add important prospects for remote connectivity, particularly 
where latency is critical. In adopting new rules for such NGSO systems 
and moving briskly on NGSO applications for U.S. market access and 
systems licenses, the Commission has underscored the vital role that 
NGSO systems can have for the broadband landscape of the future, and 
that this future is coming imminently.\9\
---------------------------------------------------------------------------
    \9\ Update to Parts 2 and 25 Concerning Non-Geostationary, Fixed-
Satellite Service Systems and Related Matters, IB Docket No. 16-408, 
Report and Order and Further Notice of Proposed Rulemaking, FCC 17-122 
(rel. Sept. 27, 2017) (``NGSO Report & Order'').
---------------------------------------------------------------------------
    At its Open Meeting on September 26, 2017, the Commission adopted a 
Report and Order and Further Notice of Proposed Rulemaking removing 
``regulatory obstacles for companies proposing to provide [broadband] 
services via large, ambitious, non-geostationary-satellite orbit 
(NGSO), fixed satellite service (FSS) systems.'' \10\ SpaceX supports 
the Commission's actions in this proceeding that update outdated NGSO 
rules, create greater regulatory certainty and add flexibility for 
next-generation NGSO systems that hold the promise of truly nationwide 
satellite broadband coverage at speeds and latencies comparable to 
terrestrial fiber-optics. Chairman Pai recognized the importance of 
NGSO systems, stating that ``[a]s we strive to close the digital 
divide, we must be open to any and every technology that could connect 
consumers across the country.. . . The rules we adopt will promote the 
next generation of NGSO systems, which could expand broadband access 
where it's needed most.'' \11\ Commissioner Clyburn similarly stated 
that ``[t]oday, we take yet another step to close those gaping divides 
by updating and streamlining rules to facilitate the deployment of NGSO 
FSS systems, which have the potential to provide ubiquitous broadband 
services to all of our communities.'' \12\
---------------------------------------------------------------------------
    \10\ Id., Statement of Chairman Ajit Pai (stating that he has 
circulated to the Commissioners orders granting U.S. market access to 
two more NGSO systems).
    \11\ NGSO Report and Order, Statement of Chairman Ajit Pai.
    \12\ Id., Statement of Commissioner Mignon L. Clyburn.
---------------------------------------------------------------------------
    SpaceX is unique in designing its system specifically to link 
consumers directly with high-speed, low-latency broadband connectivity. 
On orbit, SpaceX is employing advanced operational techniques and 
spacecraft technologies in order to maximize the capacity it can employ 
for high-speed broadband services, including high-degrees of re-use of 
valuable spectrum, and flexibility in interference mitigation, allowing 
our system to co-exist with other space-and ground-based systems. On 
the ground, affordable, easy-to-install end-user terminals can obviate 
the costs, environmental regulations, property rights issues, and other 
regulatory obstacles, that have precluded many unconnected end-users in 
smaller communities, or remote locations from comparable quality 
Internet access. Once the satellite capability is deployed on-orbit, 
the incremental costs of delivering broadband access to each new 
customer become agnostic to urban, suburban, or rural locations, in 
contrast to traditional terrestrial broadband networks.
    SpaceX's constellation is designed fulfill its primary service 
objective of providing high-speed broadband directly to end users 
globally, both widely-dispersed locations and also more concentrated 
population areas with higher capacity demands. With many satellites in 
view, the constellation offers a diversity of path for reliability and 
also access for any given customer location, even those blocked from 
traditional satellite services by buildings, mountains, or other 
physical obstacles. Phased-array technology on-orbit and on-ground 
gateways and end-user terminals permit a large number of very narrow 
beams, reusing frequencies many times over to generate a level of 
capacity that can meaningfully bridge the broadband connectivity gap. 
The same phased array technology allows for dynamic beam formation, 
shaping, and direction, both to tailor capacity by demand profile and 
also to mitigate interference to space-and ground-systems. Spectrum 
sharing prospects with terrestrial systems sharing the same frequency 
bands are enhanced by the use of high-elevation angles for 
communications with earth stations and highly directional space station 
and earth station beams.
    The combination of unique vertically-integrated manufacturing and 
design capabilities, proven production and operations experience, and 
highly-adaptable, leading-edge technology in space and on the ground 
gives promise for the SpaceX constellation to help close the digital 
divide, and bridge the current disparity in service between well-
covered metropolitan consumers and their counterparts in rural or other 
``hard-to-reach'' areas. Importantly, that urban-rural parity can also 
be sustained over future generational upgrades over the NGSO 
constellation, without requiring additional costly last-mile 
infrastructure upgrades.
    This lag was noted by the Government Accountability Office 
(``GAO''):

        Access to affordable broadband telecommunications is vital to 
        economic growth and improved quality of life across the 
        country. In rural areas in particular, broadband can serve to 
        reduce the isolation of remote communities and individuals. The 
        provision of broadband Internet infrastructure and services in 
        the United States is generally privately financed. However, 
        rural areas can have attributes that increase the cost of 
        broadband deployment, such as remote areas with challenging 
        terrain, or make it difficult to recoup deployment costs, such 
        as relatively low population densities or incomes. These 
        attributes can decrease the likelihood that a broadband service 
        provider will build out or maintain a network in a rural area. 
        For these reasons, some rural areas lag behind urban and 
        suburban areas in broadband deployment or service speed.\13\
---------------------------------------------------------------------------
    \13\ U.S. Government Accountability Office, Rural Broadband 
Deployment: Improved Consistency with Leading Practices Could Enhance 
Management of Loan and Grant Programs, (April 2017), GAO-17-301, 
available at http://www.gao.gov/assets/690/684093.pdf.

    Next-generation satellite systems operating in orbits close to the 
Earth, powered by innovative technologies to provide rapid data rates 
and minimal latency, can offer a way around this gap in broadband 
access in the United States.
IV. SpaceX's Proposed Satellite Constellation Architecture
    As noted, SpaceX plans to leverage its unique space-based design, 
manufacturing, launch, and space operations experience for the planned 
NGSO constellation.
    In particular, SpaceX aims to apply our experience in designing and 
manufacturing cutting-edge space to apply technology advancements like 
dynamic beam forming and phased array antennas in space and on the 
ground. These will ensure both unparalleled frequency re-use and 
spectral efficiency, as well as redundant and high-capacity 
infrastructure. The satellites' optical inter-satellite links will 
establish a ``mesh network'' in space through which the satellites will 
communicate with each other, further enhancing the capacity levels and 
network flexibility for faster and reliable broadband satellite 
service.
    SpaceX's consumer focus sets it apart from most other proposed NGSO 
system. SpaceX has designed its system with the primary purpose of 
providing broadband service directly to end-users, particularly 
individual households and small businesses. Meeting this distinct 
direct-to-end-user goal demands far more on-orbit capacity, which in 
turn drives the larger number of satellites in the design and the focus 
on spectrum re-use efficiency. Initially, the SpaceX system will 
consist of 4,425 satellites operating in 83 orbital planes (at 
altitudes ranging from 1,110 km to 1,325 km). This system will also 
require associated ground control facilities, gateway earth stations, 
and end user earth stations.\14\ Using Ka-and Ku-Band spectrum, the 
initial system is designed to provide a wide range of broadband and 
communications services for residential, commercial, institutional, 
governmental, and professional users worldwide. SpaceX has separately 
filed for authority to operate in the V-Band, where we have proposed an 
additional constellation of 7,500 satellites even closer to Earth, our 
Very Low Earth Orbit, or ``VLEO,'' system. In the future, these 
satellites will provide additional broadband capacity to the SpaceX 
system and further reduce latency where populations are heavily 
concentrated.\15\
---------------------------------------------------------------------------
    \14\ Space Exploration Holdings, LLC, Application for Approval for 
Orbital Deployment and Operation Authority for the SpaceX NGSO 
Satellite System (November 15, 2016), Before the Federal Communications 
Commission, IBFS File No. SAT-LOA-20161115-00118.
    \15\ Space Exploration Holdings, LLC, Application for Approval for 
Orbital Deployment and Operating Authority for the SpaceX NGSO 
Satellite System (March 1, 2017), Before the Federal Communications 
Commission, IBFS File No. SAT-LOA-20170301-00027.
---------------------------------------------------------------------------
    To implement the system, SpaceX will utilize powerful computing and 
software capabilities, which will enable SpaceX to allocate broadband 
resources in real time, placing capacity where it is most needed and 
directing energy away from areas where it might cause interference to 
other systems, either in space or on the ground. Because the satellites 
will beam directly to gateways or user terminals, the infrastructure 
needed on the ground--particularly in rural or remote areas--is 
substantially reduced, essentially addressing the ``last mile'' 
challenge and helping to close the digital divide. In other words, the 
common challenges associated with siting, digging trenches, laying 
fiber, and dealing with property rights are materially alleviated 
through a space-based broadband network.
    SpaceX intends to continually iterate and improve the technology in 
the system, something that our satellite manufacturing cost profile and 
in-house launch capability uniquely enables. The ability to modify 
service as necessary, as well as refresh the technology of the 
satellite system through iterative spacecraft design changes and 
phased, continuous deployment, is critical to meet rapidly changing 
customer demands and responsibly utilize spectrum. This approach will 
ensure that the system remains adaptable to existing and future 
customer demands.
    For the end consumer, SpaceX user terminals--essentially, a small 
flat panel, roughly the size of a laptop--will use similar phased array 
technologies to allow for highly directive, steered antenna beams that 
track the system's low-Earth orbit satellites. In space, the satellites 
will communicate with each other using optical inter-satellite links, 
in effect creating a ``mesh network'' flying overhead that will enable 
seamless network management and continuity of service. The inter-
satellite links will further help SpaceX comply with national and 
international rules associated with spectrum sharing, which 
distinguishes our system from some of the other proposed NGSO 
constellations.
    Overall, SpaceX has designed our system to achieve the following 
key objectives:

  (1)  Capacity. By combining the umbrella coverage of the LEO 
        Constellation with the more intensive coverage from the VLEO 
        Constellation, the SpaceX System will be able to provide high 
        volume broadband capacity over a wide area. SpaceX will 
        periodically improve the satellites over the course of the 
        multi-year deployment of the system, which may further increase 
        capacity.

  (2)  Adaptability. The system leverages phased array technology to 
        steer dynamically a large pool of beams to focus capacity where 
        it is needed. As noted, optical inter-satellite links will 
        permit flexible routing of traffic on-orbit. Further, the 
        constellation ensures that a variety of frequencies can be 
        reused effectively across different satellites to enhance the 
        flexibility, capacity and robustness of the overall system.

  (3)  Broadband Services. The system will be able to provide broadband 
        service at fiber-like speeds, the system's use of low-Earth 
        orbits will allow it to target latencies comparable to 
        terrestrial alternatives. SpaceX intends to market different 
        packages of data at different price points, accommodating a 
        variety of consumer demands.

  (4)  Efficiency. SpaceX is designing the system from the ground up 
        with cost-effectiveness and reliability in mind, from the 
        design and manufacturing of the space and ground-based 
        elements, to the launch and deployment of the system using 
        SpaceX launch services, development of the user terminals, and 
        end-user subscription rates.

    SpaceX soon will begin the process of testing the satellites 
themselves, with the first two prototypes launching within the next 
several months. Following the successful demonstration of our space and 
ground technology, SpaceX intends to begin the operational satellite 
launch campaign in 2019. The remaining satellites in the constellation 
will be launched in phases through 2024, when the system will reach 
full capacity with the Ka-and Ku-Band satellites. The constellation 
will be operational well in advance of full deployment, and we expect 
to begin offering services commercially as early as deployment of 800 
satellites.
    SpaceX is highly experienced with cutting-edge debris mitigation 
practices and has deep ties with the domestic and international 
institutions tasked with ensuring the continued safety of space 
operations. SpaceX has designed its satellite constellation to meet or 
exceed all existing requirements for safety of operations in space and 
upon de-orbit of satellites, and SpaceX is deeply committed both to 
maintaining a debris-free environment in space and to disposing of 
orbital assets in a responsible and safe manner.
V. Overcoming the Cost of Large Constellation Deployment: Launch and 
        Reusable Rockets
    While rights of way and the high costs of terrestrial connectivity 
for rural remote areas historically has limited the reach of broadband, 
the cost of space launch has been the major obstacle to the deployment 
of large-scale broadband satellite constellations. Affordable access to 
space effectively limited the size of satellite constellations 
operating close to the earth, where shorter signal paths could lower 
overall end-to-end latency to levels comparable to modern mobile or 
fixed broadband.
    By rethinking the launch vehicles design and production, SpaceX has 
driven down launch costs. Our work to recover and reuse rockets will 
enable truly revolutionary reductions in the speed and cost of space 
access. Every other launch vehicle provider in the world discards its 
rocket hardware after each launch. This practice is akin to throwing 
away an airplane after every leg of a trip. However, SpaceX has 
invested considerable internal resources to develop and implement 
reusability into the Falcon 9. Most of a launch vehicle's cost is 
concentrated in its first stage. SpaceX has incorporated advanced 
technologies that uniquely enable the Falcon 9 first stage to return to 
either a ground-based landing platform or an off-shore autonomous 
spaceport droneship after nearly every mission.
    This year, SpaceX proved out this concept with the successful 
launch and landing of three flight-proven Falcon 9 boosters, placing 
high-value telecommunications satellites into orbit for commercial 
satellite operators. Each Falcon 9 first stage will soon be capable of 
at least 10 flights with no refurbishment and many more flights after 
minimal refurbishment, resulting in significant cost reductions.
    Dramatically lower launch costs and the demonstrated capability to 
launch nearly every two weeks (or less) allows SpaceX affordably to 
deploy larger numbers of satellites for its own NGSO constellation at a 
pace not previously possible. Moreover, affordable access to space also 
allows SpaceX to refresh the constellation technology over time, 
driving down the cost of producing each satellite and making it easier 
to add capability to meet consumer demand and dynamically react to an 
evolving market.
VI. Policy Recommendations to Facilitate the Deployment of Space-Based 
        Broadband Systems Safely and Efficiently
    As the Committee considers policies that could facilitate the 
expansion of broadband access in the U.S., SpaceX offers the following 
recommendations:

  (1)  FAA Commercial Launch License Regulations Require Modernization. 
        As noted, launch is the key enabling capability for the 
        deployment of NGSO constellations, as well as other satellite 
        platforms that are critical to expanding broadband access. As 
        such, SpaceX recommends that existing FAA launch statutes and 
        regulations be modernized and streamlined to adapt to higher 
        numbers of launches at a more rapid cadence. The current FAA 
        regulations were promulgated in a time when commercial spaces 
        launches were rare, and launch was primarily the domain of the 
        U.S. Government. However, as the industry transitions from a 
        pace of a few commercial launches per year to a launch per 
        week, or more, in the near future, and new U.S. launch 
        providers consider entering the market, it is essential that 
        FAA regulations be updated to avoid obstructing industry growth 
        and innovation in the U.S. domestic commercial space launch 
        industry.

  (2)  FCC Commercial Launch Spectrum Licensing Process Should be 
        Streamlined. The FCC licenses the radio frequencies used by 
        commercial launch operators during launch and reentry 
        operations. Because launches originally were assumed to be by 
        and for the government, there is no allocation for the spectrum 
        used for commercial launchers. As a result, the FCC must use 
        its experimental licensing rules through a cumbersome Special 
        Temporary Authorizations (STA) process. This process is time-
        consuming for the applicant and the FCC, as each launch mission 
        may have multiple STAs for launch, landing, and various short-
        range communications with the payload. Each STA is limited in 
        validity to a maximum of six months; and is approved on a non-
        interference basis, with ``special conditions'' that ensure 
        frequency coordination with other Federal users in the spectrum 
        bands. In September 20, 2013, the FCC issued a Notice of 
        Proposed Rulemaking (NPRM) addressing spectrum for non-federal 
        space launch, in which it noted that the STA process is 
        suboptimal as commercial space launches and other commercial 
        operations in orbit grow in volume and frequency.

      The FCC's NPRM would remedy this problem by establishing co-
        primary, interference-protected allocation status for 
        commercial space launch companies and would streamline the 
        authorization process through standard, clearly-defined 
        application and coordination processes. The growth of the U.S. 
        commercial space launch industry necessitates the development 
        of a streamlined, predictable spectrum licensing process to 
        ensure the continued growth of the industry and the effective, 
        efficient, and prudent use of radio frequencies.

      This NPRM, now pending for more than four years, proposes a 
        specific allocation for non-federal space launch that would 
        allocate specific frequencies commercial space launch 
        companies. It would streamline the authorization process and 
        allow for a single, five-year license for multiple like-
        missions (for example, all missions for the same customer to 
        the same orbital plane). The allocation would be secondary to 
        the Federal users already in the band, requiring the same 
        coordination processes undertaken now to de-conflict any 
        interference prior to each mission. Importantly, Federal 
        agencies have agreed to this change, and the agency that 
        represents Federal users of radio frequencies, the Department 
        of Commerce's National Telecommunications & Information 
        Administration (``NTIA'') sent a letter to the FCC in September 
        2016 stating that Federal users of the frequency bands under 
        discussion ``strongly agree'' with the proposed new rules.

      SpaceX recommends that the Committee encourage the FCC to act now 
        to adopt the proposed rules and then move quickly to develop 
        implementing regulations that can allow frequency 
        authorizations to cover multiple like launches. This long 
        overdue action would save time and money, and it would help 
        with long-term planning for both the FCC and industry.

  (3)  Systems and Technology that Achieve Spectrum Efficiency Should 
        be Rewarded. The new generation of broadband NGSO 
        constellations holds incredible potential to bring affordable, 
        fiber-like broadband services to underserved and unserved areas 
        of the United States. Investment in advanced technologies that 
        provide spectral efficiency and operational flexibility are 
        necessary for NGSO systems to increase access to reliable, 
        high-speed broadband connectivity. How they share the valuable 
        spectrum resources will be important to their operational 
        efficiency and their ability to deliver quality broadband 
        services. Unfortunately, not all aspiring operators have chosen 
        to make the investment necessary to include many of these 
        technologies in their proposed systems. As a result, some 
        systems would not only make inefficient use of the spectrum 
        they seek to use, but also may prevent other NGSO systems from 
        efficiently sharing the available spectrum.

      As such, the Committee should ensure that their rules do not 
        unduly burden more flexible, adaptable systems with the 
        responsibility of spectrum sharing with other less 
        sophisticated systems. Any such outcome would impose an 
        asymmetrical burden that is counter to the overall FCC goals of 
        incentivizing efficient spectrum sharing. Spectrum sharing 
        policies should ensure that all systems have equitable access 
        to spectrum, avoid any warehousing of spectrum by non-operating 
        systems, and incorporate sufficient flexibility to promote and 
        accommodate spectrum coordination among operating systems. 
        Given the advent of new space-based and ground technologies, 
        spectrum sharing is most efficiently managed by using highly 
        intelligent and flexible satellites, as this expands the range 
        of potential sharing strategies available to the operators 
        involved.

  (4)  Spectrum Use Policy in the Ka-and V-Bands Should be Revised. 
        When drafted, FCC policies governing the use of spectrum by 
        NGSO constellations--specifically in Ka-and V-bands--did not 
        envision the potential of very large constellations operating 
        in LEO. As a result, NGSO constellations are unduly restricted 
        from using important segments of spectrum as compared to 
        ground-based fixed systems. While the agency has granted 
        waivers for NGSO systems to operate in parts of this spectrum 
        on an unprotected, non-interference basis, this approach is not 
        sustainable over the long-term, especially as these new NGSO 
        systems come online.

      Clear and reasonable rules must be developed to govern how 
        multiple companies will share spectrum among NGSO systems. 
        These rules are essential to the development and deployment of 
        potential NGSO systems. Companies have proposed widely varying 
        space architectures, ranging from highly-elliptical orbit 
        systems operating from 8,000-43,500 km that focus on Arctic 
        coverage to small constellations at medium Earth orbit at 
        around 10,000 km above the Earth to several larger 
        constellations operating in LEO at 1,000-3,000 km from the 
        Earth.

      The FCC recently issued a Report and Order to update rules for 
        NGSO satellite systems, including deployment milestones, 
        geographic coverage, and allocations of radio-frequency bands. 
        The new rules also discussed how multiple NGSO operators should 
        share valuable spectrum, specifying that the preferred method 
        to address interference between two NGSO systems is operator-
        to-operator negotiations. Where operator-to-operator 
        negotiations fail, the FCC recommended parameters to determine 
        where operators could interoperate and where they would be 
        required to simply divide frequency bands (``splitting 
        spectrum'').

      Every NGSO applicant agreed that spectrum splitting is the least 
        desirable and most inefficient approach to sharing frequencies, 
        because it reduces capacity and services made available to 
        consumers. The parameters that the FCC identified work well 
        when sharing spectrum for downlinking from space, because 
        downlinks already have power limits to protect other services 
        so all NGSO systems operate at similar downlink power levels. 
        However, when applied to uplinks to spacecraft in widely 
        varying space architectures, the rules actually yield far more 
        instances of mandated spectrum splitting because no comparable 
        power limits exist. The wide disparity in uplink power levels 
        often yield situations that defy coordination.

      The Committee should encourage the Commission to open a further 
        inquiry on how to best optimize spectrum use among non-
        homogeneous NGSO systems to elicit further technical input and 
        regulatory consideration. This should include review of the 
        uplink transmissions needed to traverse across higher NGSO 
        orbits in a manner that does not create broad-based 
        interference to other lower-situated NGSO systems. The FCC's 
        inquiry should also examine the effect of beam-size on 
        interference mitigation, since large geographic beams of some 
        higher-altitude systems will operate without flexibility, and 
        essentially nullify the flexibility of other NGSO systems. 
        These technical inquiries should presume that the public 
        interest is served by multiple successful NGSO systems, 
        providing services to American consumers and using valuable 
        spectral resources effectively.

  (5)  Satellite Ground Station Siting Rules Must be Modified. As part 
        of its Spectrum Frontiers rulemaking, the FCC is reviewing the 
        rules it set out for the siting of satellite gateways using the 
        28 GHz range (Ka-band) frequencies, including gateways 
        supporting both geostationary and upcoming NGSO constellations. 
        The current earth station siting rules are a complex mix of 
        numerical caps of gateways per county, and geographic avoidance 
        of population centers and arterial roadways. These rules were 
        designed to balance the need to protect terrestrial operations 
        with satellite operators' need to deploy satellite gateways in 
        locations with access to Internet points of presence and 
        backhaul facilities. However, the metrics defined for gateway 
        siting are overly complex and difficult to interpret, and also 
        may actually have the unintended effect of deterring satellite 
        deployment in certain rural areas. Several satellite operators 
        have suggested new metrics that would remove the per-county 
        limit and recalibrate the siting rules.

      The FCC should streamline the Ka-band satellite gateway siting 
        rules to reflect reasonable real-world deployment scenarios for 
        both existing and next-generation satellite gateway 
        technologies and their terrestrial mobile broadband 
        counterparts. The FCC should also exempt from its siting rules 
        those satellite gateway earth stations that operate under the 
        limit set to protect mobile broadband networks, including both 
        any per-county cap and population coverage limits.

      These clarifications will maintain reasonable interference 
        protection for evolving terrestrial mobile networks while 
        permitting the development of ground infrastructure needed to 
        support NGSO satellite systems. Given that NGSO constellations 
        could help provide broadband access to millions of previously 
        unserved or underserved Americans, the FCC should adopt 
        spectrum sharing rules that do not unduly constrain deployment 
        of Ka-band satellite ground station facilities to support the 
        delivery of innovative satellite services.

  (6)  Maintaining a Safe Space Environment. Any policy environment 
        concerning orbital debris should minimize risk to space systems 
        without imposing an unnecessary burden on responsible actors. 
        Recent concern in this arena has been driven by the 
        proliferation of small experimental satellites (micro-, nano-, 
        and cubesats) that are not maneuverable; by recent debris 
        collisions and end-of-life disassembly problems with aging 
        geostationary satellites; and, to some extent, by the potential 
        deployment of large NGSO constellations.

      To reduce conjunction risks, policies should be pursued that 
        encourage responsible and reliable satellite design and 
        operation from launch to disposal. Future policies should 
        balance a satellite's deorbit reliability with the risk of a 
        premature failure when considering whether to extend the 
        satellite's use after it reaches its design lifetime. 
        Regulations can encourage and reward manufacturing designs that 
        allow for easier tracking (e.g., tracking reflectors) and are 
        fault-tolerant and safe, particularly with respect to battery 
        and propulsion systems. Such designs would utilize materials 
        that diminish the risk of generating new debris from internal 
        faults, impacts with untracked debris, or planned de-orbit 
        reentries. Additionally, current international policy 
        guidelines mandate satellites have the capability for disposal 
        within 25 years; this time-frame should be shortened. Given the 
        diverse Federal agencies employed with space regulation and 
        policy matters, SpaceX welcomes the establishment of the 
        National Space Council and encourages robust inter-agency 
        dialogue to root agency policies in common objectives and 
        premises, even if the diverse agency authorities and space 
        missions under each agency's oversight results in distinct 
        specific regulations.

      SpaceX also supports broad sharing arrangements among space 
        operators to increase the accuracy of ephemeris data and 
        mitigate potential conjunction events, even while space 
        activities expand. Expanded data sharing will augment reliance 
        on the space surveillance network for positional information 
        and reduce positional uncertainty, reducing unnecessary on-
        orbit maneuvers. In addition to increased data sharing among 
        operators, the United States should consider investments in 
        orbital object tracking radars and other systems to enhance the 
        amount and quality of space surveillance data.

  (7)  Satellite Broadband Technology Should Not Be Excluded from FCC 
        Broadband Incentives. The FCC is currently in the process of 
        reviewing rules for and structuring the second phase of the 
        Connect America Fund (CAF II). This program, with awards 
        determined through a reverse auction, would support up to $1.98 
        billion in funding over ten years to support broadband 
        expansion to areas of need across the country. The Commission 
        has adopted rules providing different bidding weights to 
        different tiers of speed, usage, and latency applicants might 
        select. This is a reasonable means by which to ensure the best 
        service receives the most favorable score in the bidding 
        process, which is inherently in the interest of the American 
        consumer.

      However, current rules preclude all satellite systems from 
        meaningful participation, simply because current-day 
        geostationary satellite offerings do not meet the FCC's high-
        speed, low-latency criteria. Even if next-generation NGSO 
        satellite providers could provide equivalent or better services 
        than the top tiers outlined in the rules, these systems are 
        still precluded for participating. This creates a false 
        presumption that all satellite technologies are now and forever 
        unsuitable for consumer broadband, and therefore ineligible for 
        support in areas where NGSO systems are uniquely designed to 
        serve customers competitively and cost-effectively. Conflating 
        NGSO systems and traditional geostationary systems would be the 
        same as the FCC prohibiting fiber systems from bidding because 
        dial-up is not fast enough: just because both systems are hard 
        wired does not mean that they are equivalent.

      The original CAF rules also require a stand-alone voice telephony 
        service, meaning that bidders for the fund cannot offer only 
        internet-based Voice over IP (``VoIP'') services like Skype or 
        Vonage but must bundle a land-line-type service. This adds 
        inefficiency and cost, and creates another bias against non-
        wireline bidders.

      The FCC should remove constraints on any qualifying technology to 
        participate, and update or eliminate the existing general 
        preclusion for satellite bidders. By doing so, the FCC will 
        demonstrate a clear commitment to results-based regulation, 
        with a CAF II auction that supports broadband in the areas that 
        need it in the most cost effective, administratively efficient 
        way. Moreover, the Commission will achieve this goal while 
        ensuring that every bidder--no matter what technology it might 
        use--has a meaningful opportunity to participate. In addition, 
        the Commission should remove the unnecessary requirement to 
        provide standalone voice service rather than simply make voice-
        over-IP capabilities.

  (8)  Next Generation Satellite Systems are Broadband Infrastructure 
        and Should Be Included in Any Infrastructure Legislation. The 
        expansion of satellite broadband through U.S.-based 
        constellations is, fundamentally, a national infrastructure 
        project, even though many components of the infrastructure will 
        be in space. In prior investment rounds and through funds like 
        the Universal Service Fund (``USF''), satellite broadband was 
        often an afterthought. For example, of the $6.9 billion awarded 
        for broadband infrastructure through National 
        Telecommunications and Information Administration's (``NTIA'') 
        Broadband Technology Opportunities Program (``BTOP'') and the 
        U.S. Department of Agriculture's Rural Utilities Service 
        (``RUS''), only approximately $100 million went to satellite 
        systems, or less than 1.5 percent of all funds 
        appropriated.\16\ In many ways, this was the result of 
        limitations at the time on satellite capacity, high latency 
        rates due to satellite distance from the Earth, and relatively 
        slow data rates compared to terrestrial and mobile networks. It 
        was also related to a general failure of imagination to make 
        investment and subsidy structures applicable to satellite 
        infrastructure and consumer hardware, since satellite systems 
        have few ``shovels in the ground.''
---------------------------------------------------------------------------
    \16\ National Telecommunications and Information Administration, 
U.S. Department of Commerce, Broadband Technology Opportunities Program 
(BTOP) Quarterly Program Status Report (March 2017), available at 
https://www.ntia.doc.gov/files/ntia/publications/ntia_btop_31st_
qtrly_report.pdf; and U.S. Department of Agriculture, Rural Utilities 
Service, Broadband Initiatives Program Final Report (December 2016), 
available at https://www.rd.usda.gov/files/reports/
RUS_BIP_Status_FinalReportDec_2016.pdf.pdf.

      However, as satellite-based broadband achieves speeds, latencies, 
        and pricing equivalent to terrestrial and 5G wireless 
        technologies, it becomes especially critical for Congress and 
        Federal agencies to reconsider how these systems can 
        participate in national infrastructure investment programs and 
        other Federal initiatives to close the digital divide. 
        Infrastructure associated with a satellite broadband system 
        includes launch facilities, consumer terminals that are placed 
        on homes or businesses, gateways that will be placed at 
        potentially hundreds of Internet points of presence (``PoPs'') 
        throughout the United States that are used to route traffic, 
        large antennas to track and control the satellites in space, 
        and satellite operations centers. The satellites themselves are 
        essentially infrastructure in the sky, a network that is not 
---------------------------------------------------------------------------
        dissimilar to cell towers or underground fiber.

      As such, SpaceX encourages the Committee to take steps to ensure 
        that satellite-based broadband infrastructure is duly captured 
        in any Federal infrastructure, incentive, or tax policy 
        legislation undertaken to expand broadband access in the United 
        States. Such an approach will not only ensure that Congress and 
        regulatory agencies maintain a technology-neutral approach, but 
        it will also ensure the U.S. Government and American consumers 
        are positioned to benefit from the significant innovations and 
        great promise of that satellite systems are poised to bring.

    Mr. Chairman, I appreciate your invitation to testify before the 
Committee today. SpaceX looks forward to being part of the solution to 
expand access to high-speed, reliable, and affordable broadband 
Internet connectivity in the United States and worldwide.

    The Chairman. Thank you, Ms. Cooper.
    Mr. Dankberg.

              STATEMENT OF MARK DANKBERG, FOUNDER 
           AND CHIEF EXECUTIVE OFFICER, VIASAT, INC.

    Mr. Dankberg. Chairman Thune, Ranking Member Nelson, and 
members of the Committee, I'm Mark Dankberg, Co-Founder and CEO 
of ViaSat. Thank you for the chance to testify on the U.S. 
satellite industry and the critical role it plays in closing 
the digital divide in connecting millions of mobile devices and 
in our national defense.
    ViaSat is an American success story. Started in my house 31 
years ago, we've generated billions in revenue, gone public, 
and created almost 5,000 high-paying jobs.
    Six years ago, we launched our first satellite to deliver 
truly competitive broadband services directly to rural America, 
to airlines, and even to Air Force One. Though a space 
newcomer, we're redefining satellite. Our first one had 100 
times the bandwidth of a typical satellite; our second doubled 
that; and we're building one now 1,000 times better than the 
typical satellite still in use today.
    The global satellite industry is valued at $260 billion a 
year. The U.S. has the largest share. Satellite service is the 
biggest segment and the economic engine for commercial space. 
Advances in spacecraft and rockets depend on demand for 
satellite services. Communication is the largest piece of 
services, and broadband is the fastest growing part of 
communications.
    Broadband satellite demand has skyrocketed as media and 
entertainment evolves from broadcast to Internet-enabled to on-
demand service. If you've ever seen a frozen Internet 
videostream, you know the pain of slow broadband.
    Today, we deliver faster Internet to hundreds of thousands 
of American homes. We've grown without subsidies, competing 
against much larger companies. We see the market work. When our 
service is faster, people choose ViaSat.
    In 2012, our download speed was 12 megabits per second, 
above average back then. Our second-generation satellite 
reaches 100 megabits per second, again, above average for all 
U.S. broadband. We've invested heavily. We built our own 
payload factory, employing hundreds of people. In 5 years, 
we've invented three generations of satellites, aiming to bring 
fiber-like speeds to Americans left behind by other 
technologies. We're still designing even faster versions.
    We're disrupting in-flight WiFi, too. Not long ago, 
airborne WiFi and the terrestrial wireless link, so slow and 
expensive, hardly anyone used it. We now bring satellite WiFi 
to every JetBlue flight free to every passenger and with enough 
bandwidth to stream video. It's so popular, there is often more 
connected devices than passengers. We have expanded to large 
portions of United and American Airlines, too.
    We're exporting to international airlines. The global 
airline industry sees satellite WiFi as the future, with over 3 
billion global passengers a year, and over 800 million in the 
U.S. We believe competition works.
    ViaSat embraces the entrepreneurial spirit and competes 
with the largest companies in the world. Now there are dozens 
of startups and satellites in space, and we believe our success 
helps to inspire others.
    But there's a threat to American satellite growth. 
Broadband needs spectrum. Our technology uses spectrum 
extremely efficiently. And we helped the FCC open the 28 
gigahertz band for 5G while still enabling growth in satellite 
broadband by sharing the same band.
    Yet, sadly, the FCC's most recent NPRM would take spectrum, 
long allocated for satellite growth, and designate it almost 
exclusively to terrestrial wireless. This is the 47 to 52 
gigahertz band. We've been investing heavily in the technology 
that allows us to use the spectrum in the next 5 years. Such a 
policy decision would pick winners and losers, and stifle 
competition. The problem is not in accommodating 5G, it's in 
taking spectrum away from competitive satellite services and 
creating exclusivity by regulation.
    It need not be a zero-sum game. There is no technical 
argument against spectrum sharing. ViaSat has put extensive 
technical studies on the record in spectrum frontiers from 
independent experts showing satellite terrestrial spectrum 
sharing can work. There is no policy reason to limit 
competition that can bring the best broadband services to 
American consumers, businesses, and government users.
    In summary, demand for satellite broadband is at an all-
time high. We're providing a service that is competitive with 
urban offerings, and we're uniquely suited to serving the rural 
Americans other technologies have left behind. There is much 
more innovation to come. Technology markets are dynamic and 
evolve in unexpected ways.
    ViaSat is committed to serving all of America. We just need 
the spectrum tools to do so.
    Thank you again for the opportunity to appear before you 
today on these important issues. And I'll be happy to answer 
questions that you may have.
    [The prepared statement of Mr. Dankberg follows:]

             Prepared Statement of Mark Dankberg, Founder 
               and Chief Executive Officer, ViaSat, Inc.
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee, I'm Mark Dankberg, co-Founder, Chairman and CEO, of ViaSat. 
Thank you for lhe chance to testify on the U.S. satellite industry--and 
the critical role it plays in closing the digital divide, in connecting 
millions of mobile devices, and in our national defense.
    I've lived the American entrepreneurial dream. Since ViaSat started 
in my house 31 years ago, we've generated billions in revenue, gone 
public, and created almost 5,000 high-paying jobs.
    Just six years ago, we started redefining satellite broadband when 
it was apparent that existing technology was not up to the task. We 
designed our first satellite to extend urban-quality broadband services 
to rural America, airlines, and even Air Force One. That satellite 
delivered 100 times the capacity of a typical, satellite and today 
provides 25 Mbps speeds to large parts of the Nation. Our second 
generation design, launched this year, doubles that capacity, covers 
the entire nation, and supports speeds of up to 100 Mbps. We're now 
building a third generation design with nationwide-coverage, 1,000 
times the capacity of the typical satellite in use today, and support 
for fiber-like speeds. And we're designing even faster versions.
    More capacity means better service. It allows us to keep up with 
the growing demand for our services, provide even more customers at 
urban quality offerings, and support the video-streaming services that 
Cisco estimates will represent 82 percent of Internet usage within a 
few years.
    We see the market work. When our service is faster than the 
competition, people choose ViaSat. This is true not just in the 
consumer broadband sector, but also in the in-flight WiFi sector.
    Before us, in-flight WiFi was slow and expensive, and hardly anyone 
used it. We have developed satellite-delivered WiFi !hat serves every 
JetBlue flight--free to every passenger and with enough bandwidth to 
stream video. It's so popular, there are often more connected devices 
than passengers. In fact, we connect over two million personal 
electronic devices per month on airplanes. And we have expanded to the 
United and American fleets.
    We've invested heavily to serve the Americans others have left 
behind. We built our own factory to allow us to do what no one else was 
doing. And we're actively exporting this American satellite technology 
around the world.
    ViaSat embraces the entrepreneurial spirit and competes with the 
largest companies in the world. There are now dozens of start-ups in 
satellite and space. We believe our success played a role in inspiring 
others. And ii is clear that advances in spacecraft and rockets depend 
on demand from commercial satellite operators like us.
    But there's a threat to the ability to continue this American 
innovation and its ability to serve rural America. Broadband satellites 
need spectrum to achieve these goals.
    Our technology uses spectrum extremely efficiently. Last year, we 
helped the FCC open the 28 GHz band for 5G mobile wireless while still 
enabling growth in satellite broadband, by sharing that same spectrum.
    Yet, sadly, the FCC's most recent NPRM would take spectrum long-
allocated for satellite growth and make it available almost exclusively 
for terrestrial wireless operations. This is the 47-52 GHz spectrum 
that we have been planning to use on our satellites in the next five 
years. Such a policy decision would pick winners and losers--and stifle 
competition. The problem is not in accommodating 5G--it's in taking 
spectrum away from competitive satellite services und creating 
exclusivity by regulation.
    There's no technical argument against spectrum sharing. Since 
there's no technical reason, there's no policy reason to prevent limit 
competition, stifle the ability to bring the best broadband services to 
America consumers and government users, and foreclose the ability to 
provide services we can't even imagine today.
    In sum, the demand for satellite broadband is at an all-time high, 
we are providing a service that is comparable to urban offering, and 
we're uniquely-suited to serving the rural Americans that our 
competitors have fell behind. The key to our ability to continue to 
innovate and drive developments in American technology is access to 
adequate spectrum.
    ViaSat is committed to serving all of American. We just need the 
spectrum tools to do so.
    Thank you for the opportunity to appear before you today to discuss 
these important issues. I would be pleased to answer any questions you 
might have.
                                 ______
                                 
                              Attachments
          Report on Satellite Earth Station Shielding Testing
          Filed with FCC April 20, 2017, GN Docket No. 14-177.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                       Annex 1--Comsearch Report
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

               Report prepared by Roberson and Associates
        Filed with FCC September 25, 2017, GN Docket No. 14-177.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

 Roof and Ground Mount Satellite Earth Station-5G Sharing Analysis for 
                    1.8 m Satellite Earth Stations.
         Filed with FCC October 18, 2017, GN Docket No. 14-177.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you, Mr. Dankberg.
    And before I turn to Mr. Spengler, I'll just say we're 
going to have a vote at 10:30. We try to rotate Members so that 
we have people here to cover it, and we'll just keep right on 
rolling. But thank you.
    Mr. Spengler.

                STATEMENT OF STEPHEN SPENGLER, 
               CHIEF EXECUTIVE OFFICER, INTELSAT

    Mr. Spengler. Thank you, Chairman Thune, Ranking Member 
Nelson, and members of the Committee.
    I'm proud to lead Intelsat, the world's leading provider of 
satellite services. We have a fleet of 50 satellites, a 
sophisticated terrestrial infrastructure. We operate the first 
truly global network for video broadband that covers 99 percent 
of the world's populated regions.
    Our ultimate goal is a world with ubiquitous connectivity 
and no communications boundaries. To make that a reality, we 
have invested billions in high-speed satellite technology. 
We've been pioneering satellite communications since 1965 when 
we launched the first commercial communications satellite, 
Early Bird, at the dawn of the Space Age. Four years later, we 
transmitted the pictures of Neil Armstrong's first step on the 
Moon to the world. Today, 50 years later, we're a public 
company listed on the New York Stock Exchange with over $2 
billion in annual revenues, and we employ 1,000 people here in 
the U.S., with the majority based in Clean, Virginia.
    We're committed to taking the next giant leap forward for 
satellite technology in the 21st century, whether that's 
launching next-generation satellites or preparing for 
innovative smaller, lighter ground antennae.
    While Intelsat is largely a business-to-business company, 
our customers are in media, maritime, aviation, telecom and 
enterprise networking, the U.S. military, and emergency 
services. They rely on Intelsat to provide broadband video, 
secure satellite communications, and mobility services. In 
media, we distribute video programming for most of the U.S. 
broadcasters and programmers, including CBS, NBC, Disney, ABC, 
Fox, Discovery Channel, Turner, and HBO. In the air, we're a 
major supplier of WiFi broadband connectivity for airlines such 
as United, Southwest, and Delta; and on the oceans, to major 
cruise ship companies.
    In rural America, satellite bridges the last mile, where 
cell towers and fiber don't reach. In Alaska, for example, we 
help provide connections to enable telemedicine for residents 
and distance education for K-12 students. And in the U.S. 
military, we're proud to bring the Nation's soldiers, sailors, 
airmen, and Marines the critical communications capabilities 
they need to carry out successful missions around the globe.
    Satellite solutions are uniquely sustainable during natural 
disasters. When fiber is cut, cell towers washed away, the 
electricity is out, and other means of communications are down, 
satellites remain in place in outer space. We provided disaster 
recovery and emergency services to locations such as Puerto 
Rico and the U.S. Virgin Islands after the recent devastating 
hurricanes. We announced this week that in Puerto Rico, 
Intelsat is working with U.S. antenna manufacturer Yenta and 
telecom operator Liberty to deliver necessities and Internet 
connectivity to residents.
    This is an exciting time for the satellite industry. Given 
the insatiable demand for affordable connectivity everywhere 
and at all times, satellite is converging with other 
telecommunications technologies to build one common 
telecommunications infrastructure. Intelsat designed and now 
has in service a high-performance, next-generation satellite 
platform, Intelsat Epic. Intelsat Epic offers greater 
efficiency in the use of spectrum and more powerful and 
affordable services for customers.
    We all know about the connected car. Intelsat is leading 
the way with a satellite solution for the future where software 
will be as important to our transportation as the latest design 
features. Satellites will work seamlessly with terrestrial 
networks in the connected car environment. Some applications 
will run over the wireless network, but cars will get their 
software updates over satellite. The broadcastability of 
satellite from point-to-multipoint is highly efficient. Car 
companies can update thousands of cars at once, and these 
connections are more secure.
    Satellite networks can operate fully separate from the 
public network, dramatically reducing the cyber threat entry 
points, making automated cars safer for all citizens.
    Intelsat has also invested in and partnered with OneWeb to 
utilize the power of a combined multiple constellation solution 
that will enhance the worldwide connectivity for mobility, 
wireless extensions, and military services.
    Finally, in response to a recent FCC proceeding, Intelsat 
is leading with a creative market-based approach in proposal 
that will pave the way for joint use of C-band radio spectrum 
in the United States without risking significant reliability 
issues in interference for American television viewers. This 
spectrum is highly prized for both satellite television 
distribution and 5G wireless services to millions of American 
homes and consumers, and we've proposed a solution that allows 
for both sectors to flourish.
    At a time when access to secure and reliable communications 
impacts everything from the economy to national security, 
Intelsat is playing a major role innovating for our Nation's 
infrastructure.
    Thank you.
    [The prepared statement of Mr. Spengler follows:]

   Prepared Statement of Stephen Spengler, Chief Executive Officer, 
                                Intelsat
    Chairman Thune, Ranking Member Nelson and members of the Committee, 
thank you for the opportunity to appear before you today. I am Stephen 
Spengler, Chief Executive Officer of Intelsat and I'm pleased to have 
this opportunity to speak on behalf of our company, our customers and 
the many communities around the world that we serve via satellite.
Our Company
    Intelsat is the world's leading provider of satellite services. 
With a fleet of 50 high-speed satellites, and a sophisticated 
terrestrial infrastructure, we operate the first truly globalized 
network for video and broadband that covers 99 percent of the world's 
populated regions. Our goal is a world with ubiquitous connectivity and 
no communication boundaries. We have invested more than $2 billion in 
high-speed satellite technology to make more efficient use of spectrum, 
which enables more affordable broadband connections for businesses, 
machines and people.
    Intelsat has the capability to serve citizens and organizations 
everywhere, from remote, rural regions in the U.S. to the world's mega 
cities and to emerging regions that have been able to advance 
education, health services and economic prosperity through increased 
connectivity.
    I have seen first-hand how broadband connectivity and information 
communications technology can transform and empower communities. Our 
investments in innovation and new services such as hybrid terrestrial 
and satellite networks have helped to make this possible. Digital 
connectivity and inclusiveness is critical to our ability to grow our 
economy here in the U.S. Satellites play an instrumental role in the 
infrastructure that enables this connectivity.
    We pioneered the satellite communications industry. Intelsat was 
originally conceived as a multi-country treaty organization at the dawn 
of the space age. We designed and launched the first commercial 
communications satellite, Early Bird, in 1965 and ``live via 
satellite'' was born. We broadcast the first live international 
satellite TV production in 1967, which featured the Beatles' first 
performance of All You Need Is Love. We transmitted the pictures of 
Neil Armstrong's first small steps on the moon. Today, 50 years later, 
we remain committed to taking the next giant leap for satellite 
technology--whether that's launching our high-throughput Intelsat Epic 
<SUP>NG</SUP> next generation satellites, preparing for a new era in 
lower earth orbit satellite constellations or investing in the next 
generation of smaller, lighter ground antennae that you will soon see 
appearing on planes, ships and other vehicles.
    Intelsat today is a public company listed on the New York Stock 
Exchange (NYSE: I). We have annual revenue of more than $2 billion, 
committed future orders of $8 billion, and we employ 1,000 employees in 
the U.S., the majority of whom are based in McLean, VA.
What We Are Doing Today
    We are largely a business-to-business company, but Intelsat 
services enable many aspects of the daily lives of your constituents. 
Our customers in media, maritime, aviation, enterprise networks, the 
U.S. military, and emergency services rely on Intelsat to provide 
broadband, video, secure satellite communications and mobility 
services.
    In media, we distribute video programming for all of the major U.S. 
broadcasters and programmers including Disney, Fox, Discovery Channel, 
Turner, HBO and CBS. Hundreds of millions of U.S. citizens experience 
our services when they watch an HBO movie, the Olympics or the Super 
Bowl. The cable industry delivers 1,500 channels to 61 million 
subscribers through 5,000 ``headends,'' or key points of distribution 
for cable providers. As a satellite provider, we can deliver HD 
channels to those 5,000 sites at 99.999 reliability, which ultimately 
costs the consumer only pennies. No other technology can deliver these 
economics.
    In aviation, WIFI inflight is so important to airline passengers 
that it's become more essential than extra legroom. Intelsat has 
invested in its global fleet to support the global aero and mobility 
markets. We are a major supplier of broadband connectivity to airlines 
such as United, Southwest and Delta through infrastructure providers. 
We have made great strides to support these providers as they develop 
new services for domestic as well as international air routes. Intelsat 
also provides aeronautical broadband connections for senior government 
leadership.
    At sea, demand for bandwidth has grown exponentially. Just a few 
years ago, a cruise-going family might have brought a single laptop and 
a cell phone aboard ship. Today, cruise companies find that the average 
family boards a ship with 10 connected devices. And they expect the 
same performance at sea that they have at home in the U.S. The demand 
for connectivity aboard a ship is a solution that only satellite can 
satisfy and Intelsat serves major cruise lines.
    Intelsat provides critical network connectivity for many businesses 
overseas and even here in the U.S., complementing terrestrial networks. 
Our corporate data network helps the oil and gas industry to operate 
efficiently in remote geographies and ocean environments. They require 
satellite services to connect to their rigs, providing not only 
operational connectivity, but also broadband services that allow the 
crews to communicate with family members while on location. Whether it 
is transmitting data from seismic exploration ships, supporting 
mission-critical drilling operations or employee communications, 
satellite services are critical to the production of oil and energy in 
the U.S. and beyond. Retailers use satellite to create customized 
broadcast networks to educate their employees and for transaction-based 
services, such as pharmacy and credit card applications.
    In rural communities across America, satellite bridges the last 
mile where cell towers and fiber don't reach. For example, in rural 
Alaska, through a partner, we provide connections to enable 
telemedicine for residents, distance education for K-12 classrooms and 
virtual field trips for students to places like the Baseball Hall of 
Fame, zoos and aquariums located in the lower 48.
    We are also very proud to partner with the U.S. military to bring 
the Nation's soldiers, sailors, airmen and marines the critical 
communications capabilities they need to successfully carry out their 
mission around the globe and here at home, both in the sky and on the 
ground. Whether it's manned or unmanned aerial vehicles, communications 
on the move, or social and recreational welfare, Intelsat satellites 
carry the signal for our military and our troops.
    Satellite solutions, which offer sustainable connectivity, are 
unique in their ability to provide near-instant communications networks 
in areas where disasters have crippled terrestrial infrastructure. When 
fiber is cut, cell towers washed away, the electricity is out, and 
other means of communication are down, satellites remain in place in 
outer space. We provided disaster recovery and emergency services to 
locations such as Puerto Rico and the U.S. Virgin Islands after the 
devastating impact of Hurricanes Harvey, Irma and Maria. Intelsat 
provides the communications that are vital in enabling medical services 
and simply connecting people to loved ones concerned for their welfare.
    This week we announced that in Puerto Rico, Intelsat is working 
with U.S. antenna manufacturer Kymeta to deliver mobile communications 
to Liberty Global. Three vehicles, dubbed Liberty 1, 2 and 3 are 
travelling throughout Puerto Rico for the remainder of the year to 
deliver necessities and Internet connectivity to residents. Working 
with Kymeta's roof-mounted, electronically steered flat panel antennas 
which are installed on the vehicles, this combination delivers high-
speed, reliable Internet connectivity to residents, helping the islands 
and their residents return to normal, day-to-day activities.
What's On the Horizon
    The satellite industry is at an exciting inflection point. Given 
the insatiable demand for affordable connectivity, everywhere, and at 
all times, satellite is converging with other telecommunications 
technologies to build one common telecommunications infrastructure. The 
demand is ubiquitous and satellite is a part of the solution. To that 
end, Intelsat has been innovating in the design of our satellites and 
is advancing new antenna technologies. We understand that connectivity 
is critical to economic growth in the U.S. and around the world and we 
have invested in innovation that will ultimately improve the lives of 
citizens and move our society forward.
    Intelsat designed and now has in service a high-performance, next 
generation satellite platform--Intelsat Epic,<SUP>NG</SUP> which offers 
greater efficiency in the use of spectrum and more powerful and 
affordable services for customers.
    We have all read about the connected car and the autonomous car. 
Intelsat is leading the way with a satellite solution for the future, 
where software will be as important to our transportation as the latest 
design feature. For example, luxury cars currently are designed to 
include over 100 million lines of code--that's about 14 times more than 
even a Boeing 787 Dreamliner jet. Auto manufacturers are excited about 
the potential of being able to monitor vehicles and their systems 
remotely and provide simultaneous software updates to all the owners of 
a particular model using the point-to-multipoint broadcast feature of 
satellite. What a game changer to think that the car you buy today will 
get better and safer as new software features become available. The 
elimination of the need to bring cars into the dealership for simple 
code updates will save money and time for manufacturers and drivers.
    Satellite will work seamlessly with terrestrial networks in a 
connected car environment, with some applications--such as nearby 
traffic problems--running over the wireless network. Other 
applications, like software and mapping updates, will be assigned to 
satellite. Not only is the broadcast feature more efficient, reaching 
millions of drivers with one signal, it is also more secure.
    Whereas every wireless connection represents a cyber threat with 
respect to a network, satellite networks can operate fully separate 
from the public network, reducing the cyber entry points dramatically, 
making automated cars safer for all citizens.
    Intelsat has invested in our partner Kymeta which is inventing a 
new type of satellite antenna designed specifically for the connected 
car and other mobility applications.
    Intelsat has also invested in, and partnered with, OneWeb. OneWeb 
is a start-up low-earth orbit (LEO) satellite company and you will hear 
from its founder and Executive Chairman, Greg Wyler next. Utilizing the 
power of a combined, multi-orbit Lower Earth/Geostationary solution 
will also enhance the worldwide connectivity for mobility, wireless 
extension and military services.
    Finally, we all know that with this ubiquitous connectivity demand 
comes a relentless demand for access to more spectrum. Spectrum is key 
to all communication services--satellite included. Intelsat has 
recently taken a leadership role on an initiative that could bring more 
reliable and faster broadband services to millions more Americans. In 
response to a recent FCC proceeding, we have proposed a market-based 
solution that would pave the way for joint use of C-band radio 
spectrum. This spectrum is highly prized for both satellite television 
distribution and 5G wireless services.
    Sharing C-band spectrum under traditional circumstances can create 
significant reliability issues and interference, putting viewing 
audiences and other users at risk. U.S. media companies depend on C-
band for program distribution, whose characteristics allow 
transmissions of pristine quality. But we recognize that 5G is the next 
generation of mobile technology and satellite will play an important 
role in extending 5G services rural and remote communities.
    Our creative proposal, developed with Intel, provides a framework 
for managed, joint-use of the C-band spectrum in the U.S. market that 
may enable wireless and other service providers to accelerate their 
deployment of 5G. Unless the joint-use of spectrum is managed in a way 
that respects the needs of all users, companies that have invested 
billions of dollars in infrastructure will be at risk. Whether they're 
watching Monday Night Football or a Nickelodeon cartoon, American 
television viewers expect--and deserve--high quality images and 100 
percent uptime. Our proposed plan offers a win for everyone. We believe 
it's time for the satellite operators and others industry participants 
to embrace this opportunity to create more economic opportunity for 
themselves, American business and U.S. citizens.
    We are now in a productive dialogue with a number of stakeholders 
to turn this proposal into a reality. We are grateful to the FCC for 
its openness in considering market-based solutions that will result in 
the highest and best use of spectrum and accelerate innovation in this 
country.
Conclusion
    We appreciate the Committee's interest in learning more about our 
evolving industry and the impact the industry has on various customers. 
At a time where access to secure and reliable communications impacts 
everything from the economy to national security, Intelsat is pleased 
to be playing a major role in innovating our Nation's infrastructure. 
Intelsat is dedicated to envisioning the future and enabling 
connectivity everywhere and anywhere on the planet.

    Senator Wicker [presiding]. Thank you very much, Mr. 
Spengler.
    Mr. Wyler.

   STATEMENT OF GREG WYLER, FOUNDER AND EXECUTIVE CHAIRMAN, 
              WORLDVU SATELLITES LIMITED (ONEWEB)

    Mr. Wyler. Thank you, Senator Wicker, Ranking Member 
Nelson, and members of the Committee. Thank you for the 
opportunity to testify before the U.S. Senate about OneWeb's 
mission to bridge the digital divide. We will spend billions to 
build the world's first large-scale constellation and launch 
our fleet in the coming months.
    We will begin bridging the American digital divide in 2019 
by enabling low-latency broadband coverage for every home, 
school, and hospital in Alaska. In 2020, we will reach every 
square mile of America. This means a brighter future for the 
nearly half of Americans with substandard Internet access, 
primarily in rural areas. This will be a foundation for 
ubiquitous 5G service, the Internet of Things, connected 
vehicles, telemedicine, and online education.
    Our initial system, with peak speeds of 500 megabits per 
second, is just the beginning. Our second constellation, 
planned for 2021, will enable ultra high speeds beyond 2.5 
gigabits per second, faster than fiber, direct to every rural 
home using a small lightweight antenna.
    We have a third constellation planned for 2023, which will 
continue to increase our total capacity until we can support 1 
billion consumers globally by 2025. In total, we look to invest 
nearly $30 billion to achieve our mission of fully bridging the 
global digital divide by 2027, and this will start right here 
in the United States.
    Today, total satellite capacity is a few terabits per 
second. OneWeb will have 7 terabits per second in its first 
constellation, over 120 terabits per second in its second, and 
has achievable plans to reach nearly 1,000 terabits per second, 
that's one petabit per second, by 2025.
    Over the past few years, we have raised nearly $2 billion 
from caring shareholders with industry and distribution 
expertise, including Softbank, Qualcomm, Hughes, Intelsat, 
Coca-Cola, the Airbus Group, and the Virgin Group.
    To build this system, we needed to break new ground in 
satellite development. In March, we began construction of the 
world's largest purpose-built satellite manufacturing facility 
in Exploration Park, Florida. This $85 million project will 
soon produce 15 satellites per week. This factory is creating 
250 high-paying jobs--high-paying engineering jobs--with 
multiplier effects for the regional economy.
    With thousands of satellites to manufacture, hundreds of 
rockets to order and launch, and billions of people to connect 
to our system, this is not easy. But today, OneWeb satellites 
are under construction, the rockets are in place, and our first 
launch is in May.
    OneWeb was founded with the mission of enabling affordable 
access for everyone, and we must do so while protecting our 
precious space environment. I have spent the past 15 years on 
this mission. It's a life's mission and one deeply held by all 
of us.
    In 2003, I began connecting hundreds of schools and 
communities in Rwanda, building the first fiber to the home and 
the first 3G network in Africa. With each connection, I saw the 
impact on individuals and communities. I also saw the potential 
of small ISPs and telecom operators, which is why OneWeb will 
partner with, rather than displace, local operators and 
aspiring entrepreneurs.
    In 2007, I founded O3b networks, which has launched 12 
satellites. O3b has the distinction of not only being the 
fastest and lowest latency satellite system to date, but also 
the only NGSO broadband system to not have gone bankrupt, which 
illustrates the challenges and fragility of this industry.
    This is hard, but we must overcome these challenges 
responsibly. Together we must lead in setting the global 
standards for protecting our fragile space environment because 
the consequences if we do not are dire: space debris, reentry 
casualties. These are serious risks which come from substandard 
components and a lack of an adequate regulatory environment.
    We know that a single impact between satellites can cause 
thousands of debris fragments. At OneWeb, we recognize the 
responsibility of being on the leading edge, and as the first 
to launch a large constellation, we have taken great care not 
to physically overlap our orbit altitude with prior filed 
systems to reduce the risk of inter-constellation debris 
creation. These best practices have been adopted by others, as 
there remain many altitudes for safe space operations.
    Ranking Member Nelson, Senator Wicker, and the members of 
the Committee, thank you for the opportunity to testify today. 
We know you understand the moral urgency of this mission. We 
know you see the issues as you visit rural townships and 
populations where millions of Americans live without access. We 
are not here to ask you to get behind us with CAF or other 
government subsidies; we are here to stand by your side and 
bring connectivity, jobs, and economic prosperity by connecting 
people in rural America to their opportunities.
    [The prepared statement of Mr. Wyler follows:]

   Prepared Statement of Greg Wyler, Founder and Executive Chairman, 
                  Worldvu Satellites Limited (OneWeb)
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee, thank you for the opportunity to testify before the United 
States Senate about OneWeb's mission to bridge the digital divide with 
our exciting new satellite technologies. This is a great time to 
discuss our progress as we are investing over $4 billion to build the 
world's first large scale satellite constellation, and will begin 
launching our fleet in the coming months.
    In 2019 we will begin bridging the American digital divide by 
making low latency broadband available for every citizen in Alaska. The 
next year, OneWeb's broadband will reach every square mile of America 
and its territories, leaving no one behind. This means a brighter 
future for the half of America with substandard access to the internet, 
primarily in rural areas, and will be a foundation for ubiquitous 5G 
service, enabling the Internet of Things, connected vehicles, 
telemedicine and online education. Importantly, as a global system, we 
will connect American small businesses to the 50 percent of global 
markets that currently have limited or no access.
    Our initial system with peak speeds of 500mbps is just the 
beginning. Our second constellation, planned for 2021, will augment the 
first and increase this speed, up to 2.5gbps, for every rural home. 
Beyond this we have a third constellation planned for 2023 which will 
continue to increase our total capacity until we can reach 1 billion 
users globally by 2025. In total we will potentially invest nearly $30 
billion to achieve our mission of fully bridging the global digital 
divide by 2027.
    OneWeb's capacity is more in line with a terrestrial system than 
historical GEO satellites. For instance, the total GEO satellite 
capacity today is several terabits per second (tbps). In comparison, 
OneWeb will have seven tbps in its first constellation, over 120 tbps 
in its second, and approach one Petabit per second (1000 tbps) by 2025.
    Importantly, access to our services will be simple. The services 
will be offered by local ISPs and telecom providers. The terminals will 
be small, inexpensive, and lightweight so they can be installed by 
anyone. They will be low power so they can operate from built-in 
batteries or a solar panel. This unique aspect of OneWeb's system 
design will be a game-changer for those with intermittent power or 
those without power in emergency situations, rural areas and developing 
countries.
    With thousands of satellites to build, hundreds of rockets to order 
and launch, and billions of people to connect to our system, this is 
not easy. But we have made significant progress. OneWeb's production 
satellites are under construction. The rockets are in place and our 
first launch is in May.
OneWeb's System Design and Accomplishments
    In the past few years, OneWeb has made remarkable progress towards 
achieving its mission. As the first filed and announced direct to 
consumer NGSO constellation, OneWeb has been a trailblazer in design 
and manufacturing, and has achieved many milestones:

  <bullet> Formed in 2012, years before any other applicant, OneWeb 
        designed and filed for the first NGSO system capable of 
        providing low cost consumer broadband;

  <bullet> OneWeb has raised nearly $2 billion in equity from 
        shareholders with deep industry and distribution expertise, 
        including Qualcomm, Hughes, Intelsat, Coca-Cola, Airbus Group, 
        the Virgin Group, and the Softbank Group;

  <bullet> OneWeb is one of the world's largest launch purchasers and 
        has reserved and/or manifested launch capacity from Blue 
        Origin, Arianespace and Virgin Galactic;

  <bullet> As the first applicant at the FCC, we spearheaded the use of 
        NGSO spectrum combined with a sustainable satellite design to 
        reach rural populations, and received the first U.S. market 
        access grant from the FCC in June 2017; and

  <bullet> OneWeb innovated the first low-cost, high performance NGSO 
        satellites for mass production, leading to the creation of the 
        world's first and largest purpose-built production satellite 
        factory responsible for 250 new engineering jobs in Exploration 
        Park, Florida.

    To build this system we needed to break new ground in satellite 
manufacturing. Earlier this year we did just that, and our $85 million 
specialized facility in Florida will soon start production. Capable of 
producing 15 satellites per week, this new factory has also had 
multiplier effects for the regional economy. For instance, this summer 
RUAG, a space components manufacturer, moved its facilities from 
Switzerland to Titusville, FL to be near our factory. Their foreign 
direct investment in America is creating 80 new jobs in an area which 
has been hit hard following the retirement of the Space Shuttle.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1: OneWeb Satellites Factory under construction in 
Exploration Park, FL
Our Mission
    OneWeb was founded with the mission to bridge the digital divide.
    I have spent the past 15 years focused on this mission, one that is 
deeply held by many if not all of you. After selling my first company 
which specialized in semi-conductor cooling technologies, I traveled to 
Rwanda, Africa. It was then a country torn by history and without 
connectivity. In 2003, I began connecting hundreds of schools and rural 
communities to the internet, building the first fiber to the home and 
the first 3G network on the continent.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 2: Fiber installation in 2003 in Kigali, Rwanda

    With each connection, we saw the positive impact of community 
access on education, telemedicine and opportunity. I saw children who, 
for the first time, could explore their personal interests as deeply as 
they liked. With local teams, we pushed the boundaries to deploy the 
newest technologies in some of the hardest to reach and neediest rural 
populations in the world. It was there that I also saw the potential of 
small ISPs and telecom operators, which is why OneWeb will partner 
with, rather than displace, local operators and aspiring entrepreneurs, 
and much of our systems revenue will remain in the communities that it 
connects.
    In 2007, I founded O3b Networks, which stands for the ``other three 
billion'' and has launched 12 satellites. O3b has several distinctions. 
Not only is it the fastest and lowest latency satellite system to date, 
but it is also the only NGSO communications system to not have gone 
bankrupt. Today O3b, now fully owned by SES, is considered a success, 
but there is an important lesson here. This is a fledgling industry 
where failure is normal, and building these systems requires a deep and 
passionate commitment for something more than just financial returns.
    In 2012, I founded OneWeb, continuing the commitment to close the 
digital divide. Today, I am glad to see the Committee properly 
considering the leading role new satellite technologies can play in 
next generation broadband systems which will have higher performance, 
better reach and resiliency for emergencies.
    Recently, Hurricane Harvey disrupted terrestrial communications 
networks across the southeastern U.S. Hurricane Maria also brought 
catastrophic damage to Puerto Rico, making cellular service almost 
nonexistent after damaging nearly 90 percent of cell sites.\1\ In the 
aftermath of these natural disasters, satellite networks provide vital 
connectivity faster than any other option. And the faster communities 
reconnect, the faster recovery starts. OneWeb's highly resilient 
network will provide another level of critical connectivity to first 
responders and victims when tragedy strikes.
---------------------------------------------------------------------------
    \1\ https://www.washingtonpost.com/news/the-switch/wp/2017/09/28/
this-is-how-bad-cell-service-in-puerto-rico-is-right-now/
?utm_term=.d0502b304c7c
---------------------------------------------------------------------------
Challenges and Recommendations
    Bridging the Digital Divide must include sustainable development. 
This means bridging the divide without harming space for future 
generations. We cannot overlap constellations in a way that would risk 
creating space debris, or endanger humans on Earth by using less 
expensive materials which do not degrade on re-entry. OneWeb has been 
focused on sustainable space development since the beginning.
    We know that a single impact in space can cause thousands of debris 
fragments, fouling orbital altitude ranges for hundreds, if not 
thousands, of years. The Iridium/Cosmos event is just one of several 
costly, environmentally damaging examples. To prevent collisions and a 
cascading of damaging events, large scale constellations must have a 
minimum altitude spacing (MAS) for safety.
    We were the first to design a large constellation and took great 
care not to overlap any prior filed system. For the sake of future 
generations, we cannot take the collision risk of overlapping 
constellations. There are many altitudes available for safe, separated 
operation, yet with tens of thousands of satellite filings in process, 
overlapping may happen as there are currently no meaningful regulations 
on this matter.
    The last significant U.S. regulation on space debris is more than 
20 years old. The international treaty called the Outer Space Act was 
adopted in 1967. This has created a regulatory gap, and while many 
countries are drafting papers, this is a place where the United States 
can take a leadership position and drive standards of excellence and 
stewardship worldwide. NASA is conducting a study on large 
constellations due later this year, and at a minimum this can inform 
such standards.
    We have worked with the industry, including Boeing, to develop best 
practices for an appropriate MAS. A MAS of 125km can help isolate the 
impact of any single system which suffers a collision. While many 
satellites have onboard propulsion and accurate station-keeping, we 
also know that satellites fail, and when they do the potential for 
collision rises. In such a case, keeping safe distances between 
constellations protects against cascading events.
    OneWeb is also pioneering the use of grappling mechanisms for the 
removal of satellites. We will include these grappling mechanisms on 
all of our satellites for future space tugs, and we hope to open source 
these designs so every constellation may use a standard grappling 
interface to remove failed satellites. The development of satellite 
service technologies, like those at the West Virginia Robotic 
Technology Center, will play an important role in protecting altitudes 
from the many potential failed satellites.
    OneWeb also pioneered new standards calling for de-orbit within 
five years. We carry enough onboard propulsion to safely and accurately 
de-orbit each satellite. We are glad to see others adopting this 
practice as well, as it is crucial to ensure satellites do not remain 
in the small and fragile LEO environment.
    Related to the five year de-orbit period, we have also ensured our 
satellites will disintegrate on re-entry. We do not use materials which 
will survive de-orbit. While more expensive and more challenging, it is 
the proper practice rather than facing the possibility of fragments on 
the ground, and possibly causing re-entry casualties. While there is an 
old rule requiring individual satellites to have less than a 1:10,000 
chance per year of causing a re-entry casualty, this rule needs to be 
updated to apply to large constellations that, unchecked, will drop 
tens of thousands of fragments.
    Space is an unforgiving environment. Satellites can fail, and re-
entry is always a concern. Just last year China lost control of its 
Space Station Tiangong-1. Operating at 349km, its re-entry date is 
predicted between October 2017 and April 2018. While this is only a 
single space object, the largest fragments that survive re-entry are 
predicted to be 220lbs. This is a near-term reminder that we should 
keep a vigilant eye on space-related safety as we look to launch 
thousands of objects over the coming years.
    The positive news is that space safety can be straightforward when 
thoughtful, common-sense rules are applied. Operating costs and 
engineering challenges may increase slightly, but abiding by such 
minimum rules ensures satellites will continue to play a larger role in 
the Nation's and the world's communications ecosystem, and that the 
American space sector will continue to grow.
    We look forward to working with the Committee, other stakeholders, 
Federal regulators, and others to address these issues and ones yet to 
emerge.
Conclusion
    Mr. Chairman, Ranking Member Nelson, and Members of the Committee: 
thank you for the opportunity to testify today. As you have seen, we 
are on the cusp of bridging the digital divide using new incredibly 
high-performance satellite technologies.
    We know you understand the moral urgency of this mission. We know 
you see the issues as you visit rural townships and populations, where 
millions of Americans live without access to quality education, 
telemedicine and entrepreneurial opportunities.
    We are not here to ask you for Connect America Funding or other 
government subsidies. OneWeb was able to raise its funding because its 
novel technologies can sustainably achieve this goal without relying on 
such subsidies.
    We are here to stand by your side, and with many others, help bring 
connectivity, jobs and economic prosperity to rural America and the 
world's rural populations.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you very much. And thank you to all 
of our witnesses.
    Mr. Dankberg, let me begin with you. As you know, I'm from 
a rural state, and many members of this Committee are from 
rural states, and we are very much interested in bridging the 
digital broadband divide in those areas.
    Recently, Senator Cortez Masto and I introduced the 
Streamlining Permitting to Enable Efficient Deployment of 
Broadband Infrastructure Act, the SPEED Act, and it deals with 
the permitting process for deployment of broadband. This will 
give--this will help accelerate deployment in rural America in 
such areas as 5G.
    As you know, Congress and the President are working on 
infrastructure, and we would like to deal with that as soon as 
we get through with the tax packages, our next big issue.
    What are your thoughts on how Congress can ensure that 
satellite providers can be included in any broadband 
infrastructure proposal?
    Mr. Dankberg. Thank you, Senator Wicker, for your question. 
We are very anxious to participate in delivering broadband more 
to rural America. The thing that we would find the most useful 
would be to have a technology-neutral policy which would allow 
whatever infrastructure investment is made to deliver the 
greatest amount of broadband service to the greatest number of 
people with the best service at the lowest prices. That would 
be our suggestion for getting the most value out of investment 
that we make.
    Senator Wicker. Well, OK. Technology-neutral in terms of 
where we put the investment, should this be done at the FCC 
level or according to the statute?
    Mr. Dankberg. Yes, and one of the opportunities, and the 
CAF program, the Connect America Fund program, has been 
mentioned already. The Connect America Fund program has a 
concept of a reverse auction where different providers using 
different technologies could make bids to say, ``How much would 
it cost to deliver this broadband to this area with these 
features?'' And there are different technology attributes that 
the FCC has looked at: one of the dominant ones is speed, 
another one is bandwidth, a third one is latency, a fourth one 
is price.
    What we see in the market--and our experience in the in-
flight connectivity business is a good example of this--is that 
the things that really dominate users' perception of the 
quality of broadband is the speed of service that they get and 
the amount of bandwidth that they get, that is, not having to 
have usage caps that would limit the amount of bandwidth that 
they use. And the next one would be, it's tied to both of 
those, would be price.
    So our recommendation would be to use something like a 
reverse auction process, but to use market-based factors that 
would reflect the desires of subscribers for getting the best 
service that they can. And that would also allow the government 
to achieve the greatest penetration of subscribers that is 
possible, given that amount of money.
    Senator Wicker. Are we going to need to amend the statute 
on that, or does the agency already have the authority?
    Mr. Dankberg. So far, our perception is that the FCC has 
not weighted it in a market-reflective way, that the weighting 
that they've put on latency is so high that a satellite 
service--I'm going to give you an example--a satellite service 
that would deliver one or two hundred megabits per second at a 
given price and to more people would be penalized so severely 
that a lower latency service of even 10 or 25 megabits per 
second may be selected in the auction. We don't think that 
those weighting factors accurately reflect what subscribers 
really want in a broadband service.
    Senator Wicker. Ms. Cooper, were you wishing to weigh in on 
that issue?
    Ms. Cooper. Yes. Thank you, Senator. We agree that there is 
some review needed of any program that's looking at broadband 
partly because you want every tool available to you as you try 
and reach every citizen in your state.
    For the Connect America Fund, we found for us the latency 
issue is not our chief concern because we believe our low Earth 
system will have latencies in 25 to 35 milliseconds. But we 
found an area where satellites have simply been precluded from 
bidding because the last generation of satellites didn't meet 
some of those speed and latency requirements. So instead of a 
wholesale exclusion of an entire category of technology, we 
would just recommend that the Committee look at any of the 
programs or Federal incentive or infrastructure programs to 
ensure that anything that qualifies, any technology that meets 
those requirements, can bid.
    I would just say that satellites are sort of structured 
differently in that the incentive is not to build the 
infrastructure. All the companies here are investing and 
building in the connectivity. The infrastructure on the ground, 
whether it's to an end location, a terminal for the consumer, 
or potentially some gateways to manage traffic, is where that 
sort of scale is going to come in, and we may end up coming 
back to you with some recommendations to make sure those 
elements can be captured as well. But none of us here, 
certainly not SpaceX, are counting on that investment in our 
space constellation to come to fruition.
    Senator Wicker. Thank you.
    Ms. Cortez Masto, it appears you are next. The last shall 
be first.
    Senator Cortez Masto. Thank you. Thank you, Mr. Chair. I 
know my colleague Senator Sullivan has to preside, so I defer 
to him. He wanted to ask a question.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Senator Cortez Masto.
    Mr. Chairman, I just have one quick question before I go 
preside, and it's to Mr. Wyler.
    Mr. Wyler, you talked about space debris, and Senator 
Booker and I have had some concerns about this. The Department 
of Defense Space Surveillance Network currently tracks 22,000 
pieces of orbital debris that no longer serve a useful purpose.
    Can you--and perhaps, Ms. Cooper, if you want to weigh in 
on this--can you talk about what your concerns are? And of the 
Federal agencies we have tracking this, nobody seems to be in 
charge. Who should be in charge?
    Mr. Wyler. Thank you for the question. It's very important, 
Senator Sullivan. One, if there is a collision of satellites, 
we will--all the opportunities you heard today, all the 
wonderful things we could do for humanity and rural populations 
will vanish in the blink of an eye. We cannot have that. We 
have to make sure that all of the satellite systems have their 
own altitudes, that they're not all at the same place 
physically at the same time.
    And so while we're tracking 22,000 space debris, a huge 
number of space debris was created at about 800 kilometers a 
few years ago when Iridium and Cosmos satellites hit each 
other, creating thousands of new fragments to track. These 
fragments then hit each other again and create new fragments, 
creating more and more space debris. As space debris numbers 
rise, they will impact and have impacted many other satellites.
    So the important thing to do, first of all, is to just keep 
things separated. Make sure everybody is at their own 
altitudes, like airplanes, or cars driving on other sides of 
the roads. This is a physical issue.
    Now, who should oversee this? That's a very interesting 
question. Right now, the FCC does not have the tools to do it. 
NASA is studying this at great length. And the FAA is looking 
into it. It's really up to you, in the Congress and the House, 
to determine what we should be doing next and to form some sort 
of a committee and oversight and take the lead for America in 
what needs to be done because we will lead this for the rest of 
the world, which is asking the exact same questions.
    Senator Sullivan. Thank you.
    And, Mr. Chairman, I'd like to yield back full-time to 
Senator Cortez Masto, who was kind enough to let me skip in 
line so I can go preside. Thank you.
    The Chairman [presiding]. Thank you, Senator Sullivan.
    And we'll go to Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you. Thank you, Mr. Chair.
    Thank you all first of all. Great conversation today. As 
you know, I'm from Nevada, 17 counties, 15 of which are rural, 
and rural broadband is so important. So I think this 
conversation is incredible. I'm very excited about the future.
    I want to follow up on the line of discussion that we've 
had, though, about the use of reverse auctions and the process 
that should be allowed to reflect the consumers' wants. And I 
appreciate you bringing up C-band with latency and price.
    Can you talk a little bit about how proposed satellite 
Internet offerings and what they provide to consumers? Do your 
proposed satellite Internet offerings provide consumers with 
unlimited broadband access, or are there going to be data usage 
caps imposed to manage that capacity? I'll ask all of you, 
whoever. Yes, thank you.
    Mr. Dankberg. OK, yes, I'll start with that. Yes. So we 
have plans of both types, we have both effectively unlimited 
plans, and we have plans that have usage caps. The plans that 
have usage caps, we try to set the usage caps at levels that 
most people would not hit. What we have found in the market is 
that hitting the usage caps is basically the greatest source of 
dissatisfaction for users, so in our new satellites, what we've 
done is we've put--and I mentioned this in my testimony--we've 
put more than double the bandwidth that we had in our first-
generation satellite and our second one. The third generation 
that we're building is 10 times.
    And the upshot of all that is that we're working on plans 
that will eliminate usage caps for more and more of our 
subscribers, that we'll be able to go to market with 
competitively priced plans without usage caps.
    Senator Cortez Masto. Thank you. And that was my follow-up, 
was, Is it going to be cost competitive? And that's the intent, 
is to be cost competitive and do away with the usage caps is 
what I'm hearing.
    Mr. Dankberg. Yes, yes. That is--that is exactly right.
    Senator Cortez Masto. OK. I'm happy to hear from----
    Ms. Cooper. Thank you for that question. I think, like 
ViaSat, SpaceX is an engineering company. We love solving 
difficult problems. And the limiting factor here is the amount 
of capacity that you have on orbit that you can share among 
your consumer--consumers and customers. For our part, we are 
looking at pushing the boundaries of the capacity of each 
satellite and then, of course, having many of them, over 20 in 
view from any spot in the U.S. So customers can aggregate 
capacity where there is a concentration of demand and diffuse 
capacity where those end users are different, more widely 
geographically dispersed locations.
    By building more capacity on orbit, we'll be able to 
network--manage our network and groom our capacity in a 
different way. We are still several years away from providing 
customer service, so we can't answer with the kind of 
specificity that ViaSat can with their existing customers, but 
the real trick that we're focused on now is removing the upper 
limit of capacity constraints that drive those kinds of network 
management questions.
    Senator Cortez Masto. Thank you. I didn't know if the 
other----
    Mr. Spengler. Yes. Intelsat is a bit different than other--
others on the panel today. We are a business-to-business 
provider, we're providing infrastructure to operators: it could 
be a wireless operator that is looking to extend services into 
remote and rural areas, it could be a provider of WiFi in-
flight broadband, or they use our network.
    So our responsibility and our focus is developing that 
infrastructure that is extremely efficient and very cost 
effective, delivering the speeds that those providers need.
    Senator Cortez Masto. OK.
    Mr. Spengler. And so the end user customers are really the 
customers of our customers and partners.
    Senator Cortez Masto. OK.
    Mr. Wyler. So all this talk of subsidies is confusing for 
me as a entrepreneur. We've raised billions of dollars and are 
raising billions more because we are building a system that can 
operate and meet the needs of people, not meet the needs only 
if the government gives us money to help it meet the needs.
    Now, I cut my teeth in Africa building systems for people 
who made two dollars a day, you know. So they, of course, 
couldn't afford subsidies, but we had to build a system that 
could meet their needs, right? Because in those countries, they 
don't have anybody giving them anything. So if we were to raise 
this kind of money to build a system, it really needs to be 
able to operate without subsidies. It needs to be able to 
provide services at affordable rates for the people in these 
communities.
    So that's where all the subsidy conversation--I think we're 
in this point where it's like subsidy is a given, now let's 
figure out how to dish it out. Well, why don't we invent 
technologies that doesn't need--that don't need subsidies, like 
most every consumer product people in this room today buy? So 
this is where I'm sort of trying to figure out, I think we're 
taking the subsidy as a given as opposed to saying maybe we 
should have technologies that don't need it, and focus on that.
    Senator Cortez Masto. And your technology is one that will 
address the consumer's need and the consumers'----
    Mr. Wyler. We're addressing market----
    Senator Cortez Masto. Yes.
    Mr. Wyler.--where the hardest hit--this is where I spent my 
time--we're addressing the system to focus on the people in the 
most need and to do it in a profitable way, to meet their 
needs, and provide broadband that gives them oxygen-like 
capacity. They wake up in the morning, they have it, they don't 
think about it, just like we take every breath every day.
    Senator Cortez Masto. Thank you.
    I notice my time is up. Thank you very much. I appreciate 
you being here.
    Thank you, Mr. Chair.
    The Chairman. Thank you, Senator Cortez Masto.
    Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Mr. Chair. And thank you and the 
Ranking Member for holding this hearing.
    And to our witnesses today, thank you so much for being 
here and for the work you do.
    Mr. Wyler and Ms. Cooper, I just wanted to start with a 
question for the two of you, and, first of all, thank you for 
your testimony.
    I come from a very rural and geographically diverse state. 
We're small, but we've got mountains, we've got seacoast. And 
just a few weeks ago, thanks to the Chairman and Ranking 
Member, we had a field hearing in New Hampshire to explore the 
issue my constituents face when it comes to connectivity. And 
one of the more humorous parts of the hearing was when one of 
the providers said we have to be careful not to build 
duplicative capacity, and my constituents were like we just 
would like capacity, you know, we're not worried about 
duplication yet.
    So I guess the question is, How can satellite provide a 
broadband solution for states like mine? And what's the role of 
satellite in a 5G America, especially with so many of our 
places, even though the maps may say we've got connectivity, 
but in reality, our citizens will tell us they don't?
    So, Ms. Cooper, why don't we start with you.
    Ms. Cooper. Thank you. That's a terrific question. I think 
it's the problem that all of us here are geared to solve using 
different architectures and different technology approaches, 
but I think it underlies the goal that all these companies here 
on the panel have.
    For us, we are looking at these constellations of 
satellites with multiple satellites in view so that you're not 
bound to one single path to reach a specific satellite. You 
would have multiple paths to multiple satellites, which we 
think will allow some currently blocked customers to have 
access to an infrastructure of high-speed capability and 
reliability.
    And then the next step is to make sure that the customer 
can afford a service that is appropriate to what their demands 
are, and that's the next step, of ensuring that you drive the 
cost down of making lots of satellites, which is I think a 
strong suit of SpaceX and using our manufacturing and 
innovation history to drive the costs of other complex 
satellite and launch systems downward. So, and also then the 
cost of deploying those systems has to be driven down, 
certainly a factor of our launch heritage and our reusability.
    So all those pieces bring to bear these two problems. One 
of them is making sure you actually can reach the customer, and 
the second is making sure that the infrastructure that you're 
building that will be available, always on, is costly--cost 
effective and easily deployed from an architecture perspective. 
That's I think our approach.
    Senator Hassan. Thank you.
    And, Mr. Wyler, did you want to comment?
    Mr. Wyler. Sure. Sure. Growing up in Boston on the border 
of New Hampshire and spending all the weekends there, I know--I 
know your state well, and I understand the issues and the 
challenges, especially when you get in the White Mountains 
where you actually can't see through the mountain to hit 
satellites. And so lots of people--and this is sort of the same 
problem in Alaska and a lot of the northern states----
    Senator Hassan. Right.
    Mr. Wyler.--with a lot of satellites, you can't see, you 
literally just can't see them.
    So our satellites remain very high in altitude, almost 
straight up at all times, so you always have a vision of one or 
two or multiple more satellites at a time.
    The key is the terminal. The key is to have something 
small, lightweight, inexpensive. And the size is actually less 
important than the weight and the cost. And that's where people 
get--no one in rural New Hampshire, they're not going to care 
whether it's 1 foot, 2 foot, or 10 feet. They're going to care, 
``Is it cheap? Can I install it easily? And do I get really 
good Internet access?''
    Senator Hassan. Right.
    Mr. Wyler. So what we're doing is bridging--we're flipping 
rural on its head. We're making rural faster than suburban, and 
so it's no reason that rural has to have that penalty.
    Senator Hassan. OK. Thank you.
    And, yes, Mr. Spengler.
    Mr. Spengler. Yes, I just wanted to add to that. I think we 
all believe that to bridge the digital divide, it's going to 
take a combination of a lot of different technologies to get 
there. It may be direct-to-consumer by satellite, it may be 
enabling terrestrial networks in new ways.
    But I think people don't realize today that satellite is 
currently in the backbone of a lot of wireless networks around 
the world who are providing 2G and 3G services in lesser 
developed countries. And Intelsat today is providing 4G 
services, helping wireless companies extend their network in 4G 
in the U.S. So 5G is an extension of that.
    And we firmly believe that when it comes to rolling out 5G 
across the country, it is not going to get everywhere without 
the support of satellite, and satellite solutions are going to 
be essential to reaching those hard-to-reach locations and 
extending those capabilities out there in the future.
    Senator Hassan. Thank you.
    And, Mr. Dankberg, did you have anything to add?
    Mr. Dankberg. No, I think that satellites today, if you 
look at--we think a great model is satellite TV where 30--over 
30 million people have satellite TV. And our ability to provide 
satellite Internet basically corresponds exactly to satellite 
TV, a competitive service.
    Senator Hassan. Well, thank you. I see my time is up. I 
have two other questions that I'll submit to you for the 
record, one about planning for resiliency in the light of 
natural disasters, and the other about debris in space, and I 
look forward to your answers. Thanks.
    The Chairman. Thank you, Senator Hassan.
    Senator Nelson.
    Senator Nelson. I saw firsthand what satellite 
communication does in a place like Puerto Rico, since so much 
of it was--you couldn't communicate because there wasn't 
electricity, even though they were bringing in temporary cell 
towers. So I was provided a satellite phone when I went.
    I'm curious as we're going forward, talk about the role 
that your satellites will play with regard to something like 
autonomous vehicles.
    Mr. Spengler. I can start. So as I mentioned in my opening 
remarks, we see satellite as playing a important role in the 
connected vehicle. And, again, the connected car is not just 
going to be connected by satellite, it's going to be connected 
by all sorts of wireless technologies, as it is today, and we 
know the cars are getting more and more sophisticated.
    So it's leveraging each communication's technology for its 
particular role and leveraging its strength to provide a safe 
environment for cars and safe environments on the roads that 
will ultimately lead to the fully autonomous vehicle.
    What we're working on is a technology partnership with an 
antenna company that will shrink satellite antennas so that 
they're small enough to fit into the roof of a car, the company 
is called Kymeta, and this will enable software download to 
mapping downloads on a point-to-multiple-point basis to 
thousands and thousands of cars at one time. Keeping that data 
up to date is going to be essential for safety and enabling 
those future features in cars.
    Senator Nelson. And how does that integrate with the GPS 
system?
    Mr. Spengler. Well, GPS, of course, is connecting cars 
today, and it already exists. And so it is all going to be tied 
together through software and systems in the car at one point 
in time to make sure that they're all working together to 
enable a safe environment for passengers on the roadways.
    Senator Nelson. And as you answer, Mr. Wyler, also bring in 
spectrum. There's a real competition for spectrum by 
terrestrial-based broadband services as well as satellite. So 
what's the right balance?
    Mr. Wyler. Excellent question. And I like that you started 
this off with the first responder because this was actually an 
initial focus. We put a lot of resources into developing an 
antenna that would go on the top of a car or be built in, which 
also includes LTE and 3G connectivity for the passengers in the 
surrounding area.
    And a unique feature of this for a first responder. So 
imagine a fire vehicle, a fire truck, and you put the antenna 
on it, and wherever you go, when the AT&T or Verizon signal 
falls down, it's listening to the signal strength, and it turns 
on in milliseconds, maintaining your call. It tells your phone, 
``Hey, I'm here, I'm your local antenna,'' when the signal 
strength is low, and then when the signal strength comes back 
up, it automatically shuts off.
    A unique feature of this is as the vehicles come together, 
they actually know where each other are and form their own 
network. So you could walk among the vehicles with your normal 
cell phone and be using your current cellular operator, 
whichever you have, in any country of the world.
    So this would be unique and important for places like 
Puerto Rico, for instance, and Florida, where a hurricane 
comes, and every police officer and every fire vehicle and 
every emergency vehicle will actually be its own cell system 
with the resiliency that satellite brings it.
    Senator Nelson. So, Ms. Cooper, now, there are a dozen 
applications in front of the FCC for various new satellite 
constellations. So what challenge does this pose to your 
company? And how are we going to have coordination and 
spectrum-sharing protocols in the future?
    Ms. Cooper. Thank you, Senator. Part of that space 
renaissance that I referenced is an excitement about using this 
concept of low Earth orbiting satellites to solve complex 
problems on Earth. There were 32 different proposals filed at 
the ITU, and 11 of those companies have filed either to ask for 
a U.S. license for their constellation, such as ours, or a 
license to provide a foreign system with service to the U.S.
    Not all of those will succeed. This is a complex set of 
problems. There's an engineering and design and investment and 
concept and bring-to-market problems that all need to be kind 
of brought to bear.
    Companies like SpaceX love to solve these kinds of 
difficult complex problems, and we think we have a real edge 
because we can draw through our design and manufacturing 
technique and our launch capability to deploy this kind of 
system.
    The FCC has done a terrific first step to review and update 
the rules for this kind of satellite constellation, which 
hadn't been updated in about 15 years. And they rightfully put 
the onus on sharing spectrum on the operators to share and 
negotiate and coordinate. And if they can't come to agreement, 
the FCC will designate and split the bands. Every applicant in 
the round said that is the least effective outcome, is to have 
the FCC dictate and divide and designate spectrum. So the best 
outcome will be between smart systems, better incentivized to 
continue to innovate, and incentivize to continue to 
coordinate.
    And this is also true internationally. The ITU has similar 
encouragements internationally for other governments to apply 
for systems to coordinate operator to operator, and make the 
best use of the airwaves by applying those negotiations and 
smart technologies.
    Thank you.
    The Chairman. Thank you, Senator Nelson.
    Senator Gardner.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman.
    And thank you all for your testimony and time today. This 
is an incredibly exciting technology that we continue to 
develop and that you continue to deploy, and I thank you for 
it.
    It used to be when I was growing up that satellite 
communications had sort of a James Bond feel to it. If you saw 
a satellite phone, it was the size of a cinderblock, and it was 
really amazing that you could see that. We advanced then to, 
you know, cell phone technologies and the bag that dimmed the 
headlights on the car when you plugged it in. So then, you 
know, we see this--what I think you've done is sort of the 
democratization of satellite technology through broadband 
deployment, and it's incredible, particularly for a state like 
mine, where we have vast swaths of rural areas from the high 
plains on the east side to the beauty of the mountains and the 
valleys as a result, and some of the challenging terrain when 
it comes to communication on the western part of Colorado.
    And so, Mr. Dankberg, obviously I greatly appreciate your 
presence in Colorado, the work you do, the hundreds of 
employees that you have there. I appreciate what you do to help 
connect all of us. My staff informs me they are not pleased 
with your connections on in-flight satellite efforts because I 
can send them e-mails and articles and they're very upset at 
that.
    [Laughter.]
    Senator Gardner. But I appreciate it, so thank you.
    In the 1980s, your business was started and grown 
dramatically since then. You talked about in-flight satellite. 
We've had talk on autonomous vehicles, vehicle-to-vehicle 
communication, what satellites can do in terms of that. What 
other areas can satellites provide for that unique niche, too, 
as well as satellite technologies may be preferred in certain 
circumstances? If you can talk about those two ideas.
    Mr. Dankberg. Yes. Thank you, Senator Gardner. And also 
thank you for your leadership on the AIRWAVES bill and your 
recognition of the importance of satellite.
    One of the areas that we haven't talked about very much is 
our national defense and homeland security. And satellite 
provides a capability to connect people anywhere and to protect 
them. And there are many applications that we do for the 
Defense Department with satellite communications. We identify 
the locations of friendly troops and avoid fratricide, it's a 
very important application.
    One of the things I mentioned in my testimony is that we 
provide Internet connectivity to the entire U.S. VIP fleet, 
including Air Force One and Air Force Two, so that the leaders 
of our country can remain in contact with the ground no matter 
what's going on and get up-to-date information over the 
Internet.
    Another really, really important one is for our troops 
overseas. And so one of the big advantages of the satellites 
that we've developed that have so much more bandwidth than 
conventional satellites is that we can make very, very small 
terminals and put them on platforms like helicopters. And so V-
22, Marine Corps, now has the ability to remain in contact with 
their troops while in flight at broadband speeds. We also 
provide support for Border Patrol as well, whether it's in the 
oceans or over deserted areas. All these areas are very 
uniquely suited for satellite.
    And then the other point is the types of satellites that 
we're making are so new that the amount of bandwidth we provide 
is on the order of 100 times that which is available through 
organic DoD satellites. So the Department of Defense is a very 
heavy user of commercial satellite systems, especially ours and 
the networks that we provide.
    Senator Gardner. Well, you think about the advancements, if 
you go through some of the documentation of September 11, 2001, 
and you talk about the experience that President Bush was 
having on Air Force One while they were watching what was 
happening on that day, they were relying on over-the-air 
transmission, right?
    Mr. Dankberg. Yes.
    Senator Gardner. They didn't have a feed that could give 
them consistent reliable communications to watch the news to 
see what was unfolding. Now, of course, you can provide that. 
So I think, again, just the national security component of this 
is so critical and shouldn't be overlooked.
    Ms. Cooper, you talked a little bit about the constellation 
efforts that you're making at SpaceX. You mentioned in your 
testimony that there will be prototype launches over the next 
several months, and if you need the space for launch, we 
certainly have plenty of space for launch in Colorado.
    With the launch campaign beginning in 2019 with phases of 
satellites launching through 2024, I mentioned the wide swaths 
in Colorado. If low-latency, high-speed satellite 
constellations were an option for rural constituents in 
Colorado, it would mean obviously a big step in overcoming the 
digital divide. When do you think constituents like mine in 
rural Colorado, rural America, could benefit from this? Would 
they see it in 2019? How long would it take? Would they be the 
first to benefit from this? How would that look?
    Ms. Cooper. So our current deployment plans have us sending 
up two test satellites within the next few months so we can 
verify the technology we've been designing and building from 
scratch, and then starting our launch campaign in about 2019, 
and launching the entire constellation over the course of about 
5 years. So we would expect to provide commercial service, as 
early as 800 satellites deployed, which is probably in the 
2020-2021 timeframe. It certainly would be available throughout 
the United States including in Colorado. As a Kansan, we'd like 
to help you out.
    Senator Gardner. Well, just don't take our water, that's 
all I ask.
    [Laughter.]
    Senator Gardner. So just the final thing, and I've run out 
of time here, is CAF-II, you mentioned tech-neutral language 
for things like CAF-II funding. I think it's very important. I 
didn't get a chance to ask that. I asked you and Mr. Dankberg 
the same question. But I think that's very important, that we 
have to make sure that tech neutrality remains a central 
element of the work that we do.
    Thank you for your time.
    The Chairman. Thank you, Senator Gardner.
    Senator Inhofe.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Yes, thank you, Mr. Chairman. Being new on 
the Committee, I'm not as familiar as some of the rest of mine, 
with these issues. However, Mr. Dankberg, I have been the 
Ranking Member on the Senate Armed Services Committee, and we 
very interested in the applications that we have and that we 
enjoy. How are we with our competition over there? Tell me who 
else is out there that we're competing with in this realm.
    Mr. Dankberg. Which other nations?
    Senator Inhofe. Yes. Well, adversaries.
    Mr. Dankberg. Adversaries? Yes----
    Senator Inhofe. I won't make you--I won't ask you to make 
that determination as who are our adversaries, but go ahead.
    Mr. Dankberg. Yes. So satellite has been very, very 
instrumental in use in the Middle East and in Africa in dealing 
with ISIS and terrorists in terms of surveillance and 
reconnaissance. The issue is that now we're dealing with 
potential and more near-peer adversaries, and we have a number 
of issues and vulnerabilities. And so the things that I have 
described that provide more bandwidth to end users also provide 
more resilience and jam protection to our forces in the field.
    The good thing is that largely because of the American 
system and the opportunities in the U.S., the U.S.--this is 
really important, I think. This is an area, the types of 
technology that you've heard from everybody on the panel, is an 
area where the United States has clear technology leadership 
over pretty much every country. And we do work internationally, 
including all of the countries, including some that may 
eventually be adversaries.
    I think that making spectrum available and providing a 
supportive environment for satellite will keep us in the lead 
relative to all of our adversaries. I think we do have a strong 
lead now in satellite communications.
    Senator Inhofe. Yes. Where are we with Russia right now?
    Mr. Dankberg. Again, so the Russians--the underlying 
technology that we have described, all of us are describing, is 
what's called spot beam satellites. The spot beam satellites 
basically reuse frequencies extremely efficiently. You've heard 
about that, LEO and GEO.
    Senator Inhofe. Yes.
    Mr. Dankberg. No other country has the technology yet that 
we do for spot beam technology, probably a factor of 10 behind 
what we've been doing in the United States. But I can tell you 
that Russia, China, India, Brazil, all of the space-faring 
nations are very, very interested in this, and if we don't 
support our satellite industry, I feel that we could fall 
behind.
    Senator Inhofe. Yes. Mr. Spengler, did you want to make a 
comment?
    Mr. Spengler. Yes, I just want to add just something to 
that, and I agree with everything that Mr. Dankberg said about 
the importance, the tactical importance, of satellite 
communications to military missions for our military. But just 
maybe to take his last thought a little bit further. It is 
vitally important that the commercial satellite industry is 
integrated into the strategy and planning of military SATCOM as 
well.
    Senator Inhofe. Yes.
    Mr. Spengler. And what we've seen over the time period of 
recent conflicts is how critical the commercial industry has 
been to those missions, and we think that it needs to be 
sustained in a very resilient way, that we can integrate 
strategies commercially and with MILSATCOM to provide this 
leadership well into the future.
    Senator Inhofe. OK. I appreciate that.
    Mr. Dankberg, I appreciate also what you're doing in my 
State of Oklahoma. We've got some 20,000 homes with you, and, 
of course, when you put this on American Airlines, all the 
installation takes place in my home city of Tulsa. And I know 
that some of the rest of you are actually launching satellites 
right now to reach some of the rural areas which I'm concerned 
about in Oklahoma.
    But, Mr. Wyler, I know that you're not--it's not the same 
company you had when you and I talked before, when you were 
talking about your activities in Africa, and it's a different 
company now. Are you still involved in Africa? And I'd like to 
use the rest of my time having you explain to me--I just got 
back from Tanzania, Rwanda, Burundi, Ethiopia, and I've kind of 
specialized in Africa now for 20 years. So I'm interested in 
the problems they're having over there, how I can be of help to 
some of these countries, because they look to me as one who 
might be able to help them. So would you comment on that?
    Mr. Wyler. Sure. Thank you. Thank you. Africa, obviously, I 
spent a great deal of time there, and the challenges, if you 
look at the 17 SDGs from the United Nations, all these 
challenges about gender equality and water and education, every 
single one of those challenges, the underlying requirement is 
connectivity. You can't measure it, you can't manage it, 
without connectivity.
    And so Africa is just like America in our rural areas. 
There is no ability to bring broadband because the terrestrial 
infrastructure is too expensive. We still spend a lot of our 
energy with Africa. We've been working with a lot of African 
nations. Like the Government of Rwanda is an investor in OneWeb 
as well as many other places around the world.
    So we're--they're counting on us to help solve this 
problem, help to bridge this divide, because the cost structure 
of other technologies is just too high.
    Senator Inhofe. Well, it's interesting you mentioned 
Rwanda, because I had dinner with Paul Kagame just less than a 
week ago, and he brought this up. This is a great concern 
there. But go ahead.
    Mr. Wyler. Yes, and he's becoming Chairman of the African 
Union and leading the technological revolution of Africa. So 
Africa is going to have more youth than any other continent in 
the world over the next 10 years. It's growing very fast in 
population, but it's also growing in economy. The economics of 
each country is growing really fast, and they're needing and 
utilizing more broadband. If we stranglehold that broadband in 
any way, that continent will have trouble growing, it will have 
trouble allowing the youth who are hungering for information to 
experiment and understand.
    Senator Inhofe. Yes. Well, my time has expired, but maybe 
for the record, because a couple other countries have brought 
this up to me, one being the Prime Minister of Ethiopia, and 
has a great deal of interest.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Inhofe.
    Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman, and thank you to 
our panelists and for your great testimony here today. It's 
certainly an important topic and an exciting topic of the 
future. We appreciate you sharing your thoughts here today.
    This industry has been around a while, and we've been in 
space a while, and now we have thousands of active satellites 
orbiting the Earth with thousands more rocket bodies and 
hundreds of thousands of pieces of debris cluttering near-Earth 
space as well.
    On top of that, the companies that are here before us, 
you're going to be putting more stuff up into space as well. 
And so we've been very fortunate I think so far, we haven't 
seen any high-speed collisions, or a limited number of those at 
least, but certainly each collision, as you know, exponentially 
increases the odds of having other collisions as a result of 
the debris that's thrown out there.
    So, Mr. Wyler, my question to you is that your testimony 
provided some detail about your debris mitigation strategy and 
how it exceeds the U.S. Government's best standards, which you 
cited as being outdated, that we currently have. Would you 
propose that the mitigation strategies your company is 
following, namely, the 125-kilometer minimum altitude spacing 
and 5-year limit for deorbit could be followed as best 
practices for the whole industry?
    Mr. Wyler. Oh, for sure. Space debris, as you mentioned, is 
a critical component. And everything we're talking about doing 
for Africa, it will be gone if we end up with a space debris 
problem because our orbital altitudes will be gone. So the 125 
kilometers, which was actually adopted as well by Boeing, and 
others have been keeping orbital separation, is really, really 
critical to making sure that if there is an intra-constellation 
collision where one operator might have failures of satellites 
and smash into their own satellites, that those debris will 
have a limitation on how much debris they cast into other 
altitudes.
    And your own University of Michigan students who now work 
at OneWeb have done a lot of calculations on this to show the 
tail and the falling off. So you have of looking at both debris 
greater than 10 centimeters and greater than--less than 10 
centimeters, and if you look at that, it really starts to dive 
off around 125 and 150 kilometers, the total amount of debris 
that makes--when you model two satellites hitting each other 
using the NASA debris orbiting models.
    So that separation is critical. It's just like lanes in a 
highway. I mean, you can't be going in the same place at the 
same time. So----
    Senator Peters. Well, certainly, the benefits are pretty 
clear, as you just articulated. What are some of the challenges 
for us to be able to accomplish that?
    Mr. Wyler. Well, I think it's really a regulatory question 
because it's very easy to do, and there are plenty of altitudes 
for people to be in. And everyone knows where everyone else is. 
So we filed and put our satellite constellation out there years 
before everybody else in terms of this renaissance. And the 
people before us, the Globalstar and Iridium, we kept a good 
distance between them. And so most everybody usually respects 
the filing systems and says, ``OK, there's where these are. I'm 
going to be away from them so I don't have a chance of any 
erroneous issues causing a catastrophe.''
    Right now, there are no rules, I mean no substantive rules. 
That's why we don't even quote the current rules, because it's 
really--it's really not relevant. They were done in 1967, so 
the Outer Space Act, right?
    So the big challenge is for America to take a leadership 
position in this and then call in other nations and say, 
``Other nations, this is what we're doing. Would you join us in 
this? Can we talk about this? But we're already taking these 
constraints upon ourself.'' And other nations will follow, 
yearning to.
    I saw at the FCC, because of all these different 
constellations and ideas and concepts that have been sort of 
put to them, the FCC has gotten letters from other nations and 
other--the European Space Agency and other space agencies, 
saying, ``Please don't--,'' you know, ``Be very careful. It's 
not just your space,'' right? So we have to be careful, but we 
have to--and it's a global world, but we have to take a 
leadership position and have every--all these other nations 
follow us, and we have that opportunity today.
    Senator Peters. I see the other panelists shaking their 
heads, so I want to give them an opportunity to weigh in as 
well.
    Ms. Cooper, do you want to start?
    Ms. Cooper. Absolutely. I think you would be hard-pressed 
to find a company with more invested in the future of space 
than SpaceX. We certainly count on a space environment that 
allows for future inventiveness and exploration, and we've 
approached our constellation with that responsibility in mind.
    I would just add there are a couple other elements to this. 
We absolutely will participate and continue to drive forward 
the caliber of operations and expectations for space 
operations.
    There are a couple other elements I wanted to add. The 
first is, you know, the design of the spacecraft itself is 
important, the materials you choose. The spacecraft burns up on 
reentry. The compartmentalization of systems, that you can 
maintain control even if you happen to get dinged by the harsh 
environment of space, your survivability and your resilience in 
space is important.
    Your concept for how you operate on orbit is also 
important. The ability to maneuver in that sort of sandstorm of 
space, your plan for how to respond if there's a collision, and 
how to deorbit at the end of your operations are all critical.
    Finally, you have to know what's on orbit, not just the 
other spacecraft, but the debris, and we would really like to 
continue our conversations that we've been having with the 
Department of Defense and with NASA on how to continue to 
improve the quality of inputs, about our understanding of the 
space environments, that we can maneuver smartly when there is 
a maneuver.
    SpaceX is designing our satellites to be able to maneuver 
thousands of times in their lifespan, and we're bringing to 
bear the reliability that NASA entrusts for us to take human 
NASA astronauts to the Space Station to bear in that 
responsibility of operating in space.
    I know that the FCC is about to issue some new rules for 
very small satellites, cubesats, micro-sats, particularly the 
kind that are used for experimentation, and we think that's the 
kind of leadership role that the U.S. needs to take, not just 
for the U.S. environment, but for the global space environment, 
to balance the role that space can take for research and 
inspiration and also preserving that environment for future 
activity.
    Senator Peters. Well, I appreciate that. My time is 
expired, but, Mr. Spengler, you've been--if you can be brief in 
your concurrence of what you've heard.
    Mr. Spengler. Sure. We've been operating in the 
geostationary orbit for decades, and that's an orbit with 
hundreds of satellites, not thousands, but--and there has been 
defined rules on how to operate there, and it's required a lot 
of cooperation between satellite operators to share that space 
well.
    We took the initiative with several other operators to 
create the Space Data Association to enhance that engagement 
with each other so that in that arc, the industry itself is 
taking ownership and responsibility for sharing information and 
making sure that it's safe and secure for the long term.
    But now when you're talking about thousands of satellites 
in a lower Earth or mid Earth orbit, it gets more complex. And 
I agree with Mr. Wyler, I don't think we can just leave that up 
to industry cooperation, we're going to need some help and 
leadership from government to help make that a safe and secure 
environment for well into the future as well.
    Senator Peters. Right. Thank you for your testimony. I 
appreciate it.
    Senator Inhofe [presiding]. Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman.
    I'm concerned about some of the reports that we've seen 
from the intelligence community and other sources that Russia 
and China and perhaps even terrorist organizations are pursuing 
a range of anti-satellite technology, in fact, efforts designed 
to threaten our military effectiveness and the satellites that 
may be used for civilian purposes. Other countries are 
aggressively developing the jamming and hacking capabilities 
that could cripple our military technology and surveillance, 
our navigation systems and communication networks. These 
technologies can be unleashed on civilian capabilities as well, 
including commercial satellites.
    So my question to each of you is, How concerned are you by 
the potential hacking capabilities of other countries or other 
hazards that may come from them or from nongovernmental 
threats?
    Ms. Cooper. Thank you. It's an excellent question, and as a 
company that operates one of the most technologically sensitive 
activities--launch capability--we take this very seriously and 
have deep experience and heritage in the protection of those 
systems that we will bring to bear to this satellite system.
    I would also note that the supply chain is a particular 
vulnerability for space systems. And we have chosen to bring a 
high percentage of our manufacturing in-house, and maintain 
U.S. control of that, and we're proud that our satellites will 
not only be built in the U.S., have high U.S. content, they 
will also be launched on U.S. rockets from U.S. soil without 
any involvement from foreign launchers or certainly Russian 
capability.
    Thank you.
    Mr. Dankberg. Yes, thank you, Senator. I think it's a very, 
very important question. Because we work with the military and 
the Defense Department, we do get support from them on dealing 
with especially cybersecurity, and we also provide 
cybersecurity for defense satellites. So we have a good 
understanding of what the threat environment is. But I do 
believe that for a privately held company to deal with state 
actors is probably asking more than those privately held 
companies are capable of.
    I think the U.S. has taken--has had dominance in space for 
so long that, in some sense, we may take that for granted. And 
I think it's not something that we should take lightly.
    One of the solutions that we think is definitely possible 
is the types of satellites that we're talking about for 
commercial are so much less expensive and so much--so easy to 
replicate, that that's one of the ways that we at least, from a 
national defense perspective, can obtain some amount of 
assurance that we'll have a reliable capability in space is to 
use, whether in the geosynchronous arc or the in low Earth 
orbit arc, multiple satellites that provide the capabilities 
that we need so we can make the economics of damaging our 
capability in space overwhelmingly expensive.
    Mr. Spengler. As a provider to U.S. military, DoD, and 
other applications, we have built our network with the highest 
level of cybersecurity for those specific customer sets, and 
have a regular engagement and dialogue with that sector. So 
we're very familiar with the issues and the challenges. That 
has even led us to design our current generation, next-
generation, satellites, Intelsat Epic, with some very specific 
feature sets that manage and deal with intentional jamming and 
hacking that can occur on tactical missions that could be 
absolutely devastating if they're not dealt with quite--quite 
quickly.
    So it is critically important. There's no question about 
this. And it's where we have continual focus in these areas.
    Mr. Wyler. So cybersecurity is obviously very important, 
but I'll bring up something else. China not that long ago shot 
a satellite at 1,000 kilometers from the ground. They're not 
the only ones that can do it. If you put all these satellites 
in the same orbital altitude, you are literally shooting two 
birds with one bullet.
    Orbital spacing allows one satellite constellation to have 
a calamity without involving the other satellite 
constellations. So as the U.S. Government, which has been very 
active in looking at how constellations can provide very high-
speed, low-latency connectivity for its troops in the field, it 
should want--I assume it will want that resiliency and that 
capability and that assurance of continued service, and not 
make it really easy for a competitor or another nation to take 
out the entire thing at one shot.
    Senator Blumenthal. I think these answers have been very 
illuminating. My time has expired, and even if I had another 
hour probably, we would not have enough time to exhaust all of 
the important ramifications of this area. But essentially space 
is lawless right now.
    Space is the Wild West, and it's vulnerable to cyber, to 
physical interference, as you've just suggested, with missiles 
launched either from space or from ground, and we need to be 
prepared for the threats to our commercial and civilian 
satellites as well as to the military satellites that we have 
there.
    So thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal.
    Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much.
    We have come a long since Intelsat and Inmarsat had a 
monopoly, and I always enjoyed back in the 1980s and 1990s, 
break up the monopolies and to make it possible for there to be 
more competition. And we have come now to a new era, and this 
requires a lot of thought in order to unleash all of the 
potential for good which is out there.
    So, Mr. Wyler, if I can begin with you, you have raised a 
lot of money, you are going to deploy a lot of satellites. And 
I guess my big question to you is--the softball right across 
home plate for you--what's the difference between you and all 
these preceding companies that have tried to achieve the very 
same result in space in terms of providing low-cost access to 
the Internet to citizens, not only in rural parts of America, 
but around the planet?
    Mr. Wyler. Thank you for the question, Senator Markey. I 
get asked this a lot of question--a lot of times. And why now? 
Why can we do it now that we couldn't do it before, because a 
lot of people have tried? We've known the potential, but we 
haven't had the technology to accomplish it.
    I think it starts--our system, as you had me testify 10 
years ago, maybe 15, about deploying fiber to the home in 
Africa, it starts with understanding who needs what, and the 
needs of those consumers and those people in these rural 
populations, and designing for the lowest common denominator of 
customer. How do you build something that's affordable? We had 
an earlier conversation about CAF funding and all these 
subsidies. Why are we talking about subsidies? We should be 
building something that's affordable in the first place, to the 
GDP-adjusted cost structure of the environment that we're going 
to be serving.
    So what's happened now is that we're able to provide a 
service that is very low latency, which is key to the 30----
    Senator Markey. Very low?
    Mr. Wyler. Low latency.
    Senator Markey. Low latency.
    Mr. Wyler. Low latency.
    Senator Markey. Low latency means what?
    Mr. Wyler. Latency is the roundtrip time between you and 
the server on the other side. So you send a signal up to the 
satellite, down to some gateway, some server, and then back.
    Senator Markey. You mean it's fast.
    Mr. Wyler. It's fast.
    Senator Markey. OK. Yes. That's another way of saying ``low 
latency''?
    Mr. Wyler. Fast, yes.
    Senator Markey. OK, fast.
    [Laughter.]
    Mr. Wyler. When you click, it shows up.
    Senator Markey. OK, yes, I got it.
    Mr. Wyler. And there are a lot of standards for this. For 
instance----
    Senator Markey. Our job is to translate into English all 
acronyms. OK?
    [Laughter.]
    Mr. Wyler. Right.
    Senator Markey. So that our constituents understand what 
we're talking about.
    Mr. Wyler. It's super critical for things like AR and VR, 
which----
    Senator Markey. For what?
    [Laughter.]
    Mr. Wyler. Sorry. Virtual reality--OK?--and augmented 
reality.
    Senator Markey. Yes.
    Mr. Wyler. So the ability to create a videogame on this 
table while you watch with your new iPhone, this requires very 
low latency, this--this speed.
    Senator Markey. Very--very--it can move very fast.
    Mr. Wyler. Very fast.
    Senator Markey. For reality and for augmented reality.
    Mr. Wyler. And for augmented reality.
    Senator Markey. Yes. And people can decide which is better.
    Mr. Wyler. Yes.
    [Laughter.]
    Senator Markey. Reality or augmented.
    Mr. Wyler. Exactly.
    Senator Markey. Yes. We're actually living in that era 
right now.
    Mr. Wyler. 5G services demand low latency.
    Senator Markey. Yes.
    Mr. Wyler. So we've been able to create a system that is 
designed for 5G services so that you can roll out 5G anywhere.
    Senator Markey. So when can the first person on the planet 
be expected to be able to subscribe to your service and have it 
delivered? When do you expect that to happen?
    Mr. Wyler. 2019.
    Senator Markey. 2019. And where will that customer be do 
you expect?
    Mr. Wyler. Sitting in Alaska. Hopefully in Barrow or some 
other--not in Anchorage.
    Senator Markey. Yes. So you think it will be an American?
    Mr. Wyler. It will be in America.
    Senator Markey. OK. Where will the first customer outside 
of the United States be who will be able to subscribe?
    Mr. Wyler. We'll be covering Europe and we'll be covering 
Africa, South Africa, and other areas around there. Also 
Argentina and all around a lot of emerging and rural markets.
    Senator Markey. So will all of that be in 2019?
    Mr. Wyler. 2019 will be the beginning customers. 2020 they 
will all be covered.
    Senator Markey. So all of Europe will be covered?
    Mr. Wyler. 2020? Yes.
    Senator Markey. And not all of Africa, but South Africa?
    Mr. Wyler. Most of Africa will----
    Senator Markey. Most of Africa will be covered?
    Mr. Wyler. Yes.
    Senator Markey. Will it be all of South America or just 
Argentina and----
    Mr. Wyler. A big chunk in 2020. Most of--most of South 
Africa--South America will be covered in 2020.
    Senator Markey. OK. And, again, this is, you know, 
commercial. And what will it cost the average customer to be 
able to purchase this?
    Mr. Wyler. Well, we're--well, there are two things: the 
acquisition cost and the cost of service. So the acquisition 
cost, if your antenna and your terminal is in the $100 to $150 
range, you're going to have real trouble in communities, 
enabling community infrastructure to be there. If your cost--
when I started this company, based upon my work in Africa, I 
shot for, How do we make affordable Internet access for someone 
who has a two-dollar-a-day income?
    Senator Markey. Right.
    Mr. Wyler. Which means 10 cents a day.
    Senator Markey. OK. So in 2019----
    Mr. Wyler. Yes.
    Senator Markey.--in 2020 at the latest, you're on track to 
get this done?
    Mr. Wyler. Yes.
    Senator Markey. And you're going to accomplish it?
    Mr. Wyler. Yes.
    Senator Markey. Your investors are prepared to run the risk 
that you won't be just a repetition of what's happened----
    Mr. Wyler. We have a lot of investors and a lot of eyes 
watching us, yes.
    Senator Markey. OK. And how many total satellites will you 
have up there?
    Mr. Wyler. In 2020, we should be able to hit about 800 or 
900.
    Senator Markey. In 2020.
    Mr. Wyler. And then it will climb to probably another--
about 2,000 or 2,200 in 2021.
    Senator Markey. So 2,200 satellites. When Motorola was 
doing Iridium, they named it after the 77th element of 
Mendeleev's chart of elements. They had 77, right? And so you 
have just vastly expanded it with smaller satellites to ensure 
that there is ubiquitous coverage.
    Mr. Wyler. The key is making these satellites smaller and 
smaller. The----
    Senator Markey. And I think the key question I think for 
Americans is going to be, Will the price that you're offering 
in Alaska or rural South Dakota or Massachusetts, will that be 
on a scale that is equivalent to what you're going to be 
offering in Africa or in South America?
    Mr. Wyler. So we partner with the local providers, the 
ISPs, and let them--work with them to help them set the prices 
and let them set the prices for the hyperlocal environments. So 
the prices will change around the world, but it will be dealt 
with--the prices will be managed by the local--the local 
Internet service providers.
    Senator Markey. So you're saying you will be partnering 
with Comcast and AT&T in the United States in order to set the 
price for American consumers?
    Mr. Wyler. That's a great question. They don't cover most 
of the United States. So we'll be partnering with a lot of 
other people. And we're happy to also partner with them, but 
there will be competition between the partners----
    Senator Markey. So you're saying in the parts of America 
where you're going to target, it will be mostly those areas 
unserved by those large ISPs, and as a result, you'll be 
partnering with the smaller companies----
    Mr. Wyler. Yes.
    Senator Markey.--in smaller towns all across the country 
and trying to devise a price point that will bring a profit to 
the ISP and to you.
    Mr. Wyler. Correct, and to hopefully spur new ISPs and new 
entrepreneurship in those regions.
    Senator Markey. Right. So that very----
    Do you mind, Mr. Chairman, just so I can understand?
    The Chairman. [Shaking head no.]
    Senator Markey. I appreciate it. So this very low price 
point that you mentioned earlier for, let's say, Africa or 
South America, is that also going to be something that you're 
seeking to achieve that to be the lowest cost provider, 
comparatively speaking, across the United States?
    Mr. Wyler. Yes. We're seeking to be affordable for 
everybody in every state, and so we will hopefully be the 
lowest cost provider. The price will change. It may not be that 
low in some states, but it will be affordable to the people 
with their local GDP.
    Senator Markey. Mm-hmm. Do you have already existing 
contracts with those ISPs, or are they to be negotiated in 
the----
    Mr. Wyler. We have a number of MOUs already with them that 
were set up and ready to go. If you look at our investor base, 
which includes Hughes and includes Softbank, which has a number 
of telecom companies, including Sprint, we're working very 
closely to make sure we can get rural coverage. It's a passion 
and a drive and what we're going to succeed.
    Senator Markey. So do you already know what that price 
point is going to be because of the already negotiated 
contracts?
    Mr. Wyler. We know that we have the flexibility for that 
price point to move to what is affordable within the regions.
    Senator Markey. Uh-huh.
    Mr. Wyler. So we actually took a very unique approach to 
this. Rather than saying, OK, it's $30 a month or $50 a month, 
we've said, ``OK, let's work together in your region for your 
area and let you set the price because you're the expert about 
what's going on in rural South Dakota, you know what the 
farmers there can afford and what they can pay and what the 
competitive prices are.''
    Senator Markey. Yes. And so--and, finally, is the service 
which these people are going to receive comparable to the 
service that people receive in Boston?
    Mr. Wyler. I--speaking as a customer of someone in Boston, 
I don't want to achieve that, better.
    [Laughter.]
    Mr. Wyler. So watching the circle go around.
    Senator Markey. No, I hear you.
    Mr. Wyler. So we've designed a system that really uses 
spectrum very efficiently. We're actually asking the question, 
Why can't rural be faster? So we're shooting for 2021 to 
achieve 2.5 gigabits per second of capacity direct to a rural 
home. So there should be no--in the new technological age, 
there should be no penalty for being in rural populations. 
Those people who want to stay there and want to be educated and 
want to stay with their parents and build businesses should be 
able to, and that's what we're trying to achieve, and I think 
we are.
    Senator Markey. Well, I saw what you did in Rwanda. You 
came and we had you testify. It was an incredible concept. You 
executed it, and it transformed Rwanda. OK? No one would have 
ever thought broadband in Rwanda would work so successfully. 
It's really transformed their future. Hopefully here this 
concept also is executed because I think the potential is 
unlimited in terms of transforming information and competition, 
not just in the United States, but around the planet. So thank 
you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey. And I'm glad you 
settled once and for all what latency actually is.
    [Laughter.]
    The Chairman. We have a whole new way of explaining 
speeding tickets in this country, using high latency--low 
latency.
    Let me just ask a couple of general questions as we wrap up 
here, to all of you, and feel free to jump in here. What are 
the major factors right now that are affecting investment in 
next-generation satellite technology?
    Ms. Cooper.
    Ms. Cooper. So at SpaceX, we're not at this point going out 
to seek outside investment for this project. But I would say 
the capability to undertake a complex problem is definitely a 
differentiating factor, the ability to not only conceive of it, 
but actually deploy the manufacturing design that's responsible 
and undertake the space operations in a way that preserves the 
space environment I think are going to be rewarded.
    I think the work that my colleagues here on the panel have 
done in terms of advancing the caliber of satellite services 
continuously over the last few years has also generated an 
enormous amount of investment interest and excitement about 
what the space environment and what the satellite sector can 
do.
    Thank you.
    The Chairman. Anybody else?
    Mr. Dankberg. I think there are really two factors. One is 
this notion of a space renaissance where there has been a large 
increase in investment in space I think is absolutely true. You 
see a lot of startups. One of the big reasons is because there 
are companies working on reducing the cost of access to space, 
and that's basically democratizing the environment.
    But there are, I would say, two issues. The number one 
issue is access to spectrum. For communications, no 
communications system can really achieve the level of cost 
effectiveness and performance that we want and the level of 
competition Senator Markey has raised without access to 
spectrum.
    And I think that the real issue here is not dedicating 
spectrum only to satellite at the detriment of some other, it's 
really working on sharing because there is a finite amount of 
spectrum, and that is a very, very important area.
    I'll tell you, at the next level down, and it's not quite 
as important, is the one that we touched on a little bit here, 
which is the question of subsidies. And the real issue of 
subsidies, I kind of agree with Greg, is that we work on a free 
market basis. We don't expect subsidies in order to be able to 
provide a good broadband product at a competitive price 
anywhere in the U.S. We can do that without subsidies.
    I do think that we should think about what the effect is of 
subsidies on market distortion and how that reflects what it is 
that the market really wants, and I think that's--I wouldn't 
put that at the level of the spectrum issue, but it's something 
I think for the government to consider.
    The Chairman. OK.
    Mr. Spengler. What we've encountered in recent years, and 
it has been said many times today, is this renaissance in space 
and satellite communications, and as a result, there is robust 
investment. There is robust investment in innovation, there are 
sources of capital that are supporting investment, and I think 
that all ties to the recognition that the future network is an 
integrated network, it's a single network, it is a telecom 
network that will have many parts to it: satellite, wireless, 
fiber. And so it is really driving a lot of this innovation 
that's happening.
    I think the next big area for enhanced investment and free 
market investment is really on the ground technologies. And it 
has been referenced a few times today, investments have been 
made on satellites and enhancing the performance, the cost, but 
we also have to continue to invest on the ground--the 
terminals, the user devices that customers have, to make them 
smaller, cheaper, simpler to install, and easy--and that way 
we'll be fully integrated.
    The Chairman. Mr. Wyler.
    Mr. Wyler. So as the only sort of startup in the room, 
we've had to go out and raise our share of capital, and we have 
a very wide and broad base of investors. I'll say sort of the 
two big things.
    Spectrum certainty, spectrum certainty, spectrum certainty, 
and repeat that so we know it. We should not play with 
spectrum. You should not play with people's foundations. If you 
went to Verizon and said, ``We're thinking about taking back 
the 700 megahertz,'' or whatever, the 1.9, you know, ``maybe it 
would just halt investment overnight.''
    Don't play with the spectrum. This stuff that we're doing 
takes 7 years to build and tens of billions of dollars to do it 
at the scale we're talking about. If you play with spectrum, 
you play with the investors' understanding and viewpoint of the 
solidity of your project, which already has many other 
dynamics.
    The second thing is space debris. If there's an accident in 
space, you will see a halt to investment. So unless we take a 
leading position on this--and it's not just from the U.S., lots 
of people can launch satellites, we need to take a leading 
position in the U.S. and have all other countries work with us, 
and they're eager to do so, so that we can keep satellites in 
their own lanes, because if they hit, the whole thing is gone.
    The Chairman. Right.
    Mr. Wyler. So these are the places where you, on your 
bench, in your position, are speaking not just for investment 
for the future, but you're the voice of the people with no way 
to speak, the people in the future generations who also want to 
have access to space, the people in the rural populations who 
know that this is the only way they're going to get broadband 
that's equivalent or better than that in the suburbs, and be 
part of the rest of the world and be part of the rest of 
America economically and socially.
    So those are the two things: spectrum certainty and space 
debris certainty.
    The Chairman. All of you have talked about how the 
satellite constellations that you have proposed are raising a 
number of issues for the FCC and for various other 
international entities. But do you feel that the FCC has the 
tools currently that it needs to properly address the issues 
that are raised by satellite constellations along the lines of 
what you proposed today?
    Ms. Cooper. I would just say I think the FCC has done a 
laudable job in a very complex issue area. They have just 
undertaken an update of the rules for these kinds of 
constellations that had been sort of dormant since the last 
generation of low Earth orbiting satellites. Those rules will 
give us a much better platform to kind of pivot to this next 
newer unfolding generation. They did things like extending the 
milestones by which you need to deploy a constellation, which 
is especially important if you have larger constellations. And 
as ViaSat has noted, the ability to be able to deploy those is 
contingent on launch capability, which is something we feel 
very strongly about our capabilities there.
    They've also really laid the expectations in terms of 
sharing spectrum to be firmly on the operators to try and 
figure out how to interoperate with each other, interoperate 
and protect the satellites that are above us, and also make 
sure that we can work with the terrestrial operators.
    The thing that I would say that would be most useful, I 
think, from the Committee in terms of the Commission is to make 
sure there's a reflection of this opportunity with space-based 
systems in the expectations of spectrum, that there are two 
kind of key underlying principles. One is you should use, 
avail, every technology that's possible to try and be a more 
efficient user of the spectrum, and also be incentivized for 
any group of parties, whether it's terrestrial and satellite or 
within the satellite sector at different orbital hierarchies to 
try to apply technology for spectrum sharing. That's going to 
serve the American consumer better because you'll get better 
services through the same amount of frequency bands. I think 
those are the two principles that the FCC is going to benefit 
from in terms of direction from this Committee.
    On space debris, I think the recommendation for the 
agencies to work together and pool their common and diverse 
experiences to continue to evolve that sort of foremost role of 
the U.S. in terms of maintaining a safe environment, that's a 
successful next step. We were pleased to see the formation of 
the National Space Council, we're pleased to have participation 
in the first meeting, and expect to be involved in every one of 
the agencies that's active in space policy.
    Thank you.
    The Chairman. Thanks.
    Yes, go ahead quickly.
    Mr. Dankberg. I think the FCC certainly has the skills and 
the resources to manage spectrum. And one of the things that's 
helped us is the FCC's willingness to entertain new spectrum-
sharing strategies within the satellite sector itself. That was 
part of what made our satellites more effective. And then also 
recently with the 28 gigahertz spectrum frontiers, the FCC--and 
we did reach agreement on spectrum sharing between terrestrial 
5G and satellite, so we know that's possible.
    I think that especially recently there has been a very 
strong focus on 5G wireless and the FCC, possibly to the 
detriment of other technologies, satellite being one. The other 
one that I would put in a plug for, and this really goes to 
some of Senator Markey's questions, is we're a little bit 
unique because we are a direct retailer.
    So we not only drive down the cost of delivering broadband, 
but we then set the prices to our subscribers. And in dealing 
with--we also deal in Mexico, where we can provide broadband at 
the price points today that Mr. Wyler was talking about in 
Africa.
    The thing that makes that possible is unlicensed spectrum 
because when we deliver bandwidth through other carriers, 
they're the ones, as Mr. Wyler said, that are setting the price 
points. With the access to unlicensed spectrum, we can go to 
Native Americans, Indian reservations, national parks, and 
deliver services directly to people's phones with unlicensed 
spectrum. And that's an area that there is really not a very 
strong advocacy within the FCC. I think that that's one area 
that could use more support.
    The Chairman. OK.
    Mr. Spengler. I think the FCC, like a lot of regulators 
that are dealing in the digital world have challenges because 
things are moving so fast, there is so much change, and I think 
that's where industry and the private sector and the market can 
be of benefit in terms of helping solve some of these 
challenges.
    We're coming to the FCC with all kinds of new models that 
we haven't gone to before where we're talking about partnering 
with different satellite operators, different kinds of 
arrangements, and it's all to develop new services for 
different parts of the world, and in the U.S. in particular.
    We recently responded to a Notice of Inquiry from the FCC 
on the C-band. And the C-band right now, back to some of the 
comments that have been made, is being sought after by the 
wireless industry. Currently, it's being used by satellite 
broadcasters to distribute programming to cable head ends, to 
retransmitters all around the country, and millions of 
Americans get their television through the C-band distribution.
    What we've done is we said, look, we don't believe that 
sharing can work in the traditional sense, and we proposed a 
new solution, and we proposed a solution with Intel saying let 
the industry work on this together, let the market decide how 
we can free up spectrum in that band to allow the growth of 5G 
wireless, which we believe in, we all want that happen, but 
also give some certainty and surety to the broadcasters and the 
television viewers around the country, a scheme where there's 
joint use, that the market can decide the best way to clear 
that spectrum, and that we can bring a solution to the FCC. 
They have a lot of things on their plate, and this is one that 
the industry could potentially solve together in this 
particular case.
    The Chairman. Mr. Wyler.
    Mr. Wyler. I'd actually slightly disagree with Mr. 
Dankberg. The FCC is probably underresourced in some areas. 
Just a slight disagreement there. Generally, they've been doing 
an excellent job. There are places where they are just 
overwhelmed with new technologies and new ideas, and in this 
digital age, that changes so fast.
    Certainly, I'll just--you know, in the latest proceeding, 
the ability for NGSOs to interfere with GSOs, they've just 
given us sort of a hall pass and said, ``Go ahead and work it 
out later.'' It's kind of interesting because they're supposed 
to protect the GSOs. Now, being on the beneficial side of that, 
I shouldn't be saying anything bad about it, but I think it's a 
bit--it was generous, let's say, and unexpected to let us do 
that.
    I think in terms of space debris, they are trying, they 
really are. They're putting out questions to people with kind 
of everybody has got these different ideas with how they're 
going to put their--where they're going to put their satellites 
and whether they're going to crash into each other or not, and 
people--and they're asking them for more data. But they're not 
equipped for that, they're not designed for space debris, 
because they're a spectrum--they're spectrum focused, right? 
They're in electrons, not in physical objects hitting each 
other.
    So some committee, some way of giving them some tool with 
NASA, with the FAA, with others, maybe a Presidential 
commission, maybe a congressional or Senate commission, I don't 
know, but some way of giving them some oversight and some 
support in dealing with this because right now, since--
basically their arms are tied, they're frozen, they don't know 
what to do with it because there is no good answer with the 
current--if you launched all these satellites, you'll 
definitely have space debris. So now what do they do? And who's 
in charge of that?
    The Chairman. OK. Got it. All right. Well, thank you all. 
And I appreciate very much your----
    Senator Markey. Can I just ask one question?
    The Chairman. Yes.
    Senator Markey. Your questions have been great, so it just 
prompted one question, which goes back to Mr. Dankberg on the 
historic role of unlicensed spectrum and what you think that 
role should be in this space right now. Can you talk about that 
just for a minute, please?
    Mr. Dankberg. Yes. Thank you. One of the things--if you 
look at some of the things that are really different in the 
satellite industry compared to, say, 5 or 10 years ago, there 
are two that are big ones.
    One is--and the history of Intelsat shows most of the time 
satellite companies had to work through other telecom providers 
because their customers were the telephone companies or the 
wireless carriers.
    The other one is if you wanted to provide video 
transmission, you had to work with a content owner or a TV 
station for distribution. What's really different now and is 
very liberating in the satellite industry is that you have 
million--you have billions of phones going around which have 
WiFi capability. So now a satellite operator, if they can 
deliver a transmission at lower cost than a terrestrial 
operator, you can create real competition by going to them 
through unlicensed spectrum, but only if that unlicensed 
spectrum is truly available and has the ability to reach those 
people.
    The other big, big change is that now you're seeing these 
over-the-top video services where an individual subscriber can 
basically make an arrangement directly with a service provider, 
like it could be Disney, it could be Sling, Hulu, and that now 
transmission is really a commodity that you can just deliver to 
that subscriber, greatly reduce their cost without having to go 
through someone else.
    So for the first time, satellite is no longer just a cost 
input to somebody else, but it has the ability to compete in 
two-way transmission.
    Senator Markey. So you're saying, if I may, I just want to 
put it into my consumer perspective, you're saying that these 
multiple satellite competitors, in an unlicensed spectrum world 
down below, has more potential for identifying markets that 
they could move into and provide services at an even lower cost 
because that spectrum is unlicensed, and you don't--the company 
terrestrially doesn't need a return on investment because it's 
unlicensed at that point. It's a much lower cost----
    Mr. Dankberg. Yes.
    Senator Markey.--overall, and it puts a pressure on the 
market that otherwise would not be there because consumers will 
be opting out and heading in that direction.
    Mr. Dankberg. Yes, and if I could elaborate just for a 
second, we are doing services in Mexico and in Africa. In 
Africa, we work with an organization called RASCOM, which is an 
organization of all the African states. We need to go through 
cellular operators there. A cellular operator would need to go 
into a village and invest $50,000 to $100,000 to put a cell 
tower in. In Mexico, we can do it directly using our own 
satellites, and for $1,000, put in a WiFi hotspot.
    So that--we've talked a lot about technology, which is 
exciting, but the business model changes are very important, 
and seeing regulations that support those would be very, very 
helpful.
    The Chairman. OK. Thank you, Senator Markey.
    Well, great panel, great questions, great answers. It's a 
fascinating field, and one that we obviously want to do 
everything we can to support and encourage and see that we are 
doing everything we can to make sure that people all over the 
country and all over the world, in the South Dakotas of this 
country and other places around the world, have access to 
everything that comes with technologies, and broadband, and the 
opportunities associated with it.
    So we appreciate the good work that you all are already 
doing, and we'll look forward to working with you and encourage 
you as you encounter issues, challenges, that you think we 
ought to be attending to and articulating policy about, to 
share that with us. But this I think has been very, very 
helpful, and we'll look forward to other opportunities to hear 
from you again.
    I will just say to our panelists that if you could respond 
to any questions that are submitted by members of this 
Committee, we'll try our best to ensure that we close the 
record out in a matter of a couple of weeks. So we'll try and 
get our Members to get their questions for the record to you, 
and then if you could, as promptly as possible, get those 
responses back, it would be most appreciated.
    So with that, we will conclude. Thank you all very much.
    [Whereupon, at 12 p.m., the hearing was adjourned.]

                            A P P E N D I X

   Response to Written Questions Submitted by Hon. Maggie Hassan to 
                            Patricia Cooper
    Question 1. With the recent hurricanes and tropical storms 
devastating Florida, Texas, and Puerto Rico, I'd like to talk a little 
bit about emergency preparedness. If things go according to plan with 
this industry, in a matter of years our planet will be covered with 
low-orbiting satellites providing broadband to every corner of the 
Earth. That comes with a major responsibility to bring people back on 
line after storms and disasters. How is the industry thinking about 
emergency preparedness, and backup power? Is having an all-of-the-above 
approach to connectivity that incorporates satellite, fixed, and mobile 
broadband a good idea to make sure we can rebuild after disasters?
    Answer. Maintaining reliable Internet access in the aftermath of a 
natural disaster can be critical when carrying out rescue operations, 
assisting survivors, and beginning the recovery process. The 
unprecedented destruction and humanitarian crises caused by Hurricanes 
Harvey, Maria, and Irma revealed the significant role satellite 
communications play in disaster relief. For those in the affected 
areas, where the existing communications infrastructure was either 
damaged or decimated, satellite communications provided the initial 
connectivity for first responders and consumers alike.
    When operational, SpaceX's planned non-geostationary orbit (NGSO) 
satellite constellation will ensure that its users anywhere in the 
world can maintain access to reliable, high-speed Internet connections, 
VOIP, and 5G backhaul, even in the event of an emergency that disrupts 
the power grid. SpaceX's constellation will connect its end-users 
directly to its satellites via small, rooftop mounted terminals, which 
will be available with a small solar panel. This allows for operational 
connections even with local power outages. Additionally, because 
SpaceX's satellite constellation will be optically linked in space, 
Internet traffic from the affected area can be routed in space to 
Internet gateways well away from the disaster zone, allowing for 
connectivity even when local communications have been severed.
    An ``all-of-the-above'' approach to connectivity is important in 
order to ensure responders, aid groups, government authorities, and 
affected citizens can maintain connectivity after a disaster and in the 
recovery months following an event. Accordingly, in any future 
infrastructure legislation, SpaceX supports a technology neutral 
approach to both emergency communications services and more general 
broadband infrastructure deployment. Currently, satellite-based 
broadband systems are excluded from some sources of Federal 
infrastructure funding for broadband deployment. The aim of emergency 
communications and broadband deployment efforts should be to multiply 
the means of broadband access nationwide, and to ensure rapid and 
resilient broadband availability following an emergency--regardless of 
the type of technology used.

    Question 2. One issue this Committee has discussed at previous 
hearings is the issue of space debris.
    According to NASA, there are over 500,000 pieces of debris orbiting 
the earth. This debris ranges in size from non-functional satellites, 
to fragmented debris as small as specks of paint. This debris travels 
around the earth at speeds of up to 17,500 miles per hour, roughly ten 
times faster than a bullet. At these speeds, even the tiniest bits of 
debris can cause damage, and windows on the Space Shuttle were replaced 
because of damage from tiny debris. With the increasing launches of 
micro-satellites and decreasing launch costs it is now easier than ever 
to launch craft into low earth orbit, and the problem is likely to 
increase many times over. Do you believe that current processes and 
regulations in the United States are sufficient to mitigate the 
increase in space debris? How can we work to address this issue?
    Answer. In developing its broadband constellation, SpaceX has 
focused from the outset on design, technology, and operations that will 
preserve and protect the space environment for current and future 
operations. SpaceX is committed to exceeding all U.S. and international 
space safety standards in the deployment and operation of its satellite 
constellation, and to advancing new best practices for safe orbital 
operations and orbital debris mitigation. This includes leveraging the 
high-tech manufacturing expertise and spaceflight experience SpaceX has 
gained providing launch transportation services for a diverse set of 
customers, including NASA and the Department of Defense.
    Based on this experience, SpaceX is incorporating the following 
best practices into its broadband constellation to fulfill its 
commitment to safeguarding space safety:

  (1)  Satellite Design: SpaceX satellites are being designed and built 
        specifically to maximize control of a spacecraft throughout its 
        lifespan, even in the rigorous space environment. Each SpaceX 
        satellite is being designed with redundant, fault tolerant 
        capabilities to ensure they can survive failures and encounters 
        with space debris. SpaceX is leveraging its extensive 
        experience in resilient spacecraft design, including its 
        heritage with the Dragon crewed spacecraft that is undergoing 
        human-rating approvals to transport NASA astronauts to the 
        International Space Station. SpaceX is carrying over similar 
        critical redundancies into its satellite constellation, 
        shielding its satellites from micrometeorites, and engineering 
        components to withstand an impact in the event of a collision.

  (2)  On-orbit Operations: SpaceX satellites are being designed to 
        maneuver regularly, both in order to avoid tracked debris and 
        to maintain a safe separation within the constellation and with 
        other spacecraft, space stations, and constellations. This 
        ability to process data about potential orbital obstacles and 
        autonomously maneuver satellites to avoid a collision is a 
        critical safety element. SpaceX is again able to leverage its 
        experience with its Dragon cargo capsule, which NASA has 
        approved to autonomously approach the International Space 
        Station, disembark, and reenter Earth's atmosphere. This is 
        among the most challenging and demanding close-approaches in 
        space. SpaceX's satellites will use on-board, highly efficient 
        solar-electric propulsion systems that are capable of 
        autonomous daily maneuvers, adding up to thousands of maneuvers 
        over the course of their lives, in order to avoid potential 
        collisions. Even if the risk of impact with space debris is 
        deemed highly unlikely, the satellites will course correct 
        autonomously to avoid the remote possibility of a collision.

  (3)  Safe Space Operations: SpaceX is developing a detailed 
        operations plan that includes an orderly orbital disposal 
        protocol that maintains control of each spacecraft, while 
        rapidly deorbiting. The spacecraft are being designed out of 
        materials that will disintegrate in the Earth's atmosphere at 
        the end of their useful lives, reducing risks on the ground. 
        After completion of their useful life-span, SpaceX anticipates 
        that, typically within one-year, its satellites will reenter 
        the Earth's atmosphere and disintegrate, far sooner than the 
        twenty-five year international standard.

  (4)  Government collaboration: SpaceX works closely to coordinate the 
        development of its satellite constellation with all relevant 
        government, industry, and international stakeholders. SpaceX 
        has experience working with every Federal agency involved in 
        space safety, notably with NASA's Orbital Debris Program Office 
        (ODPO) and the Department of Defense's Joint Space Operations 
        Center (JSpOC). For the past year, SpaceX has been testing its 
        risk analysis and collision avoidance software via a series of 
        extensive debris tracking simulations with JSpOC. This 
        software, in coordination with JSpOC's orbital debris data, 
        will allow SpaceX satellites to maneuver autonomously to avoid 
        collision risks--even when these risks are determined to be 
        highly improbable.

    SpaceX is deeply invested in a space environment that is viable for 
future operations, development, and exploration. We believe that a 
combination of approaches including satellite design, operational 
responsibility, and collaboration can help ensure a healthy, viable 
space environment for generations to come.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maggie Hassan to 
                             Mark Dankberg
    Question 1. With the recent hurricanes and tropical storms 
devastating Florida, Texas, and Puerto Rico, I'd like to talk a little 
bit about emergency preparedness. If things go according to plan with 
this industry, in a matter of years our planet will be covered with 
low-orbiting satellites providing broadband to every corner of the 
Earth. That comes with a major responsibility to bring people back on 
line after storms and disasters. How is the industry thinking about 
emergency preparedness, and backup power? Is having an all-of-the-above 
approach to connectivity that incorporates satellite, fixed, and mobile 
broadband a good idea to make sure we can rebuild after disasters?
    Answer. All types of communications technologies are required to 
survive and rebuild after natural disasters. Satellite networks are 
composed of diverse space and ground infrastructure providing 
significant advantages that allows them to remain operational during 
and after natural disasters as compared to local terrestrial 
communications infrastructure that may be damaged or destroyed and take 
weeks or months to restore.
    Federal, state and municipal public agencies, including FEMA and 
NGO recovery organizations and everyday consumers use satellites to 
provide robust services and business continuity when other networks are 
damaged, overloaded or unavailable. Satellite communications also 
provides a load sharing or surge capacity solution and enable the 
creation of instant communications infrastructure.
    ViaSat currently has broadband satellite coverage of the 
continental United States plus Hawaii and Alaska, soon to be extended 
to the U.S. Virgin Islands and Puerto Rico. During the recent events in 
Texas and Florida, the NGO recovery teams deployed ViaSat portable 
satellite broadband terminals to help volunteers connect online to 
provide critical medical support, place people in shelters, and 
continue to heal the impacted communities.
    Below is a comment from an Exede (ViaSat) customer after hurricane 
Harvey:

        ``I just went through the Hurricane/Tropical Storm Harvey here 
        south of Seguin, TX. That storm came within 20 miles of us. How 
        do I know this? Because my Exede Internet stayed up the whole 
        time! The winds and rain were ferocious and I was quite frankly 
        pleasantly surprised when my Internet connection continued 
        without a burp. I was able to monitor the storm, keep in touch 
        with friends and even watch Netflix. I've always liked the 
        Exede service but this time it survived the `Hurricane' test. 
        Keep up the good work, Exede, and thank you for being there 
        when all else was in turmoil ):-)''

    Question 2. One issue this Committee has discussed at previous 
hearings is the issue of space debris.
    According to NASA, there are over 500,000 pieces of debris orbiting 
the earth. This debris ranges in size from non-functional satellites, 
to fragmented debris as small as specks of paint. This debris travels 
around the earth at speeds of up to 17,500 miles per hour, roughly ten 
times faster than a bullet. At these speeds, even the tiniest bits of 
debris can cause damage, and windows on the Space Shuttle were replaced 
because of damage from tiny debris. With the increasing launches of 
micro-satellites and decreasing launch costs it is now easier than ever 
to launch craft into low earth orbit, and the problem is likely to 
increase many times over. Do you believe that current processes and 
regulations in the United States are sufficient to mitigate the 
increase in space debris? How can we work to address this issue?
    Answer. ViaSat has several U.S. geostationary spacecraft 
authorizations for its current broadband space operations and has 
applied for a medium-Earth orbit system. ViaSat works with its 
satellite manufacturers and vendors to assess and design its spacecraft 
to limit the probability of accidental explosions, ensure safe flight 
operations during the service life of its satellites, and to facilitate 
appropriate post-mission spacecraft disposal in order to preserve a 
safe space environment. ViaSat's U.S. authorizations contain conditions 
to ensure that the highest orbital debris standards and best practices 
for space operations are designed into and maintained while operating 
the spacecraft.
    It is important that the United States remain a leader in the 
development and implementation of space debris best practices and 
mitigation. In fact, the development of safe flight practices and 
disposal procedures in the United States, led by NASA and DoD over the 
years, has encouraged other space faring nations and commercial 
operators to adopt similar procedures leading to an excellent safety 
track record, even though there have been a few unfortunate incidents 
over the years. Continuing to encourage industry best practices in 
partnership with government satellite operators, is the swiftest and 
most effective way to ensure that the latest techniques are 
incorporated into existing and future spacecraft and operations. It 
also requires government and commercial operators to timely share 
flight data and routinely cooperate on an operational level.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maggie Hassan to 
                            Stephen Spengler
    Question 1. With the recent hurricanes and tropical storms 
devastating Florida, Texas, and Puerto Rico, I'd like to talk a little 
bit about emergency preparedness. If things go according to plan with 
this industry, in a matter of years our planet will be covered with 
low-orbiting satellites providing broadband to every corner of the 
Earth. That comes with a major responsibility to bring people back on 
line after storms and disasters. How is the industry thinking about 
emergency preparedness, and backup power? Is having an all-of-the-above 
approach to connectivity that incorporates satellite, fixed, and mobile 
broadband a good idea to make sure we can rebuild after disasters?
    Answer. Hybrid networks and solutions are essential to disaster 
recovery. Due to the geographical challenges that many of our customers 
face around the world, fixed and mobile network operators are already 
integrating satellite into their networks to provide resiliency and 
redundancy should their terrestrial network be rendered inactive due 
the effects of a hurricane, flood, earthquake or more extreme natural 
or man made disasters. For example, given the broad scope of the 
connectivity challenges following Japan's 2011 earthquake, Japan's 
mobile network operators have turned to Intelsat to fully integrate our 
satellite network into their own. By doing so, they will have increased 
resiliency and redundancy in case of a natural disaster as well as have 
a way to extend their networks and bring much needed connectivity to 
communities in the more remote areas of the country.
    During the devastating Hurricane Season of 2017, Intelsat provided 
communications services using its Globalized Network and IntelsatOne 
Flex managed service, a customizable offering that aggregates space 
segment, the Intelsat Epic <SUP>NG</SUP> high throughput satellites and 
the IntelsatOne terrestrial network into a simplified, unified 
ecosystem to quickly deliver bandwidth where it was needed most. 
Intelsat's support efforts began even before the first storm approached 
land, initiating disaster recovery and restoration plans for customers 
across the media, broadband and mobility sectors with operations 
established in the projected paths of the storms. In some cases, 
customers transitioned hub operations and relocated staff to Intelsat 
teleport locations, maintaining unimpaired operations throughout the 
storms. With broadcasters being significantly impacted by the flood in 
Houston, Intelsat's Galaxy 16 satellite was used to provide vital 
connectivity to re-establish services and ensure that critical news 
coverage reached residents and those outside the area.
    Intelsat, Liberty Global and Kymeta teamed up to provide critical 
connectivity to Puerto Rico, whose infrastructure suffered catastrophic 
damage due to Hurricane Maria. Three Kymeta-Intelsat enabled vehicles 
crisscrossed 29 remote towns from October through December 2017. The 
vehicles were equipped with Kymeta KyWay<SUP>TM </SUP>flat panel, beam-
forming, electronically-steered terminals that leveraged Intelsat's 
satellite connectivity. Despite the lack of any electrical power or 
cellular service, the low power-consuming terminals provided Internet 
access using the vehicles to power the communications system.
    Intelsat also worked with AT&T and Verizon to provide VSAT services 
to restore communications for enterprise customers. Intelsat's Ku-band 
broadband service helped banks and pharmacies open for customers again 
as well as providing communications support for the Puerto Rican 
government and FEMA.
    These are just a few of the many examples of the importance of 
hybrid connectivity when it comes to disaster relief. By incorporating 
the reach, resiliency and redundancy of satellite technology into a 
fixed/mobile network, operators will harden their networks, help ensure 
that critical connectivity is available to assist with medical needs, 
recovery efforts and play a role in maintaining or rebooting a region's 
wireless infrastructure so that people's lives can return to normal.

    Question 2. One issue this Committee has discussed at previous 
hearings is the issue of space debris.
    According to NASA, there are over 500,000 pieces of debris orbiting 
the earth. This debris ranges in size from non-functional satellites, 
to fragmented debris as small as specks of paint. This debris travels 
around the earth at speeds of up to 17,500 miles per hour, roughly ten 
times faster than a bullet. At these speeds, even the tiniest bits of 
debris can cause damage, and windows on the Space Shuttle were replaced 
because of damage from tiny debris. With the increasing launches of 
micro-satellites and decreasing launch costs it is now easier than ever 
to launch craft into low earth orbit, and the problem is likely to 
increase many times over. Do you believe that current processes and 
regulations in the United States are sufficient to mitigate the 
increase in space debris? How can we work to address this issue?
    Answer. The potential for increased space debris is a concern for 
all operators. Intelsat is a founding member of the Space Data 
Association, a voluntary group formed for the purpose of encouraging 
and enabling the sharing of satellite flight data for both commercial 
and government satellites. We have long held the belief that sharing 
data and complete transparency is essential to safe space operations. 
With new constellations in lower earth orbit (LEO) fast approaching, it 
is more critical than ever that we increase the level of data sharing 
and transparency among the international satellite operators.
    While non-geostationary constellations will operate at a lower 
altitude than Intelsat's geostationary satellites, our satellites will 
still traverse those orbits during launch and orbit-raising to the 
geostationary orbit, so there is concern about debris potential even in 
those lower altitudes, particularly given the number of satellites 
required to cover the earth. In addition, many nanosats/cubesats are 
less agile and pose both navigational and Space Situational Awareness 
challenges (SSA). This is in contrast to geostrationary satellites 
which are more flexible and at the end of their maneuver life, our 
geostationary satellites are boosted to a graveyard altitude in 
accordance with FCC requirements--generally approximately 300 km above 
GEO.
    In our view, the keys to successful Space Situational Awareness 
are: accuracy, actionable data, transparency, reasonable regulation and 
cooperation. To achieve that, we recommend the following:

  <bullet> Regulation needs to be appropriate to support spaceflight 
        safety, but not limit innovation. We need appropriate 
        regulation as debris mitigation standards applied to a 
        geosynchronous satellite may be different than those of a large 
        constellation of nano-satellites in low-earth orbit with little 
        room to maneuver. And with the FAA taking a leadership role in 
        the regulatory arena, this could lead to a more rational 
        international framework than exists today.

  <bullet> Actionable Data/Transparency. The industry needs need 
        accurate, actionable data. As a result, there is a need for a 
        technical capability to catalog the date, integrate the various 
        formats and throw out the outliers. The growing data 
        collection, exploitation and dissemination requirements far 
        outpace the ability of cumbersome government acquisition 
        processes to keep up. The commercial capabilities in this area 
        are revolutionary, and several companies have offerings that 
        would solve many of today's issues and anticipate those of 
        tomorrow. It is our understanding that the U.S. Government 
        leadership is aware of these capabilities and seeks to take 
        advantage of them.

  <bullet> Realistic covariance. This is currently missing from JSpOC 
        and commercial capabilities could provide fill that void.

  <bullet> Systematic debris retrieval service. The same way people of 
        come together to clean up the Everest base camp, government 
        should come together to clean up space of all unwanted debris.

    The Geosynchronous orbit is the most valuable piece of real estate 
that we have in Space. It should be protected by all means. While we 
need the U.S. to lead, we also need an International solution. We need 
to encourage government action as a public service for all 
international satellite operators and recommend an international pilot 
program that addresses the points above. That way, every satellite 
operator and launch service provider will design and operate their 
assets in a manner consistent with preserving a safe space environment 
for future generations
                                 ______
                                 
     Response to Written Question Submitted by Hon. Cory Booker to 
                               Greg Wyler
    Question. Mr. Wyler, you suggested a possible Commission to deal 
with space debris issues. What do you think should be the goals of this 
Commission?
    Answer. Bridging the Digital Divide must include sustainable 
development and the responsible stewardship of space. Today there are 
almost no rules for space traffic. Companies and countries can fly 
satellites in almost any location or altitude without regard to what is 
already there. This has led to overlapping system designs which, if 
built, have a high risk of physical collision. Companies and countries 
can also design satellites focused on cost without regard to safety. 
Issues like re-entry casualty risk can be all but ignored, allowing 
companies to use lower cost materials which do not burn up on re-entry 
and will impact the ground. As constellations grow to thousands of 
satellites, the continuous re-entry and earth impact create significant 
potentially uncontrollable hazards.
    This is precisely why space debris and space traffic management are 
in need of U.S. leadership. The U.S., as the largest market for 
services, has an opportunity to create a set of rules which govern 
these important space debris issues. These rules would be welcome 
globally by many other concerned nations.
    The FCC is trying to address space debris, but its current role is 
limited. The FCC regulates the use of satellite spectrum, rather than 
in-orbit collisions or re-entry casualty risk. Even if the FCC could 
take a more active role, many satellite types, such as those for 
imaging or sensing, will not even need FCC approval for their 
activities.
    This proposed Committee (whether under an existing Department, 
Committee, or Commission) should include a team with deep knowledge of 
these space debris and re-entry casualty issues and have the goals of:

  (1)  Ensuring any space objects for which U.S. authorization is 
        sought meet a minimum common-sense standard to prevent space 
        debris, including:

      a.  Safe altitude separation,

      b.  Designing for demise to minimize re-entry casualty risk.

      c.  Adequate positional knowledge and maneuvering capability,

      d.  Prompt satellite disposal upon decommissioning, and

  (2)  Providing leadership on the global issues of space debris and 
        re-entry casualty risks. The Committee should seek the advice 
        of and work with, the FAA, NASA, and other U.S. agencies and 
        organizations to promote minimum safety standards for space 
        traffic.

  (3)  Supporting other agencies faced with space debris related issues 
        and reviewing the impact of satellite licensing with respect to 
        U.S. liability for space debris under the 1967 Outer Space 
        Treaty.
                                 ______
                                 
      Response to Written Questions Submitted by Maggie Hassan to 
                               Greg Wyler
    Question 1. With the recent hurricanes and tropical storms 
devastating Florida, Texas, and Puerto Rico, I'd like to talk a little 
bit about emergency preparedness. If things go according to plan with 
this industry, in a matter of years our planet will be covered with 
low-orbiting satellites providing broadband to every corner of the 
Earth. That comes with a major responsibility to bring people back on 
line after storms and disasters. How is the industry thinking about 
emergency preparedness, and backup power? Is having an all-of-the-above 
approach to connectivity that incorporates satellite, fixed, and mobile 
broadband a good idea to make sure we can rebuild after disasters?
    Answer. Satellites are the most reliable method of communications. 
Until now, their use has been limited by their cost, the high latency 
leading to a poor quality of service, and the size/difficulty of 
installing the satellite receiving terminal. OneWeb has designed and 
manufactured a new generation of satellites which overcome these prior 
obstacles. OneWeb's new terminals will be small, lightweight, and, most 
importantly, low-power. OneWeb's terminals can run on batteries for 
short durations or be powered by a small solar panel for longer 
durations.
    OneWeb was designed to operate in the most economically challenged 
emerging markets. These markets similarly have limited to no local 
power available and few structures to permanently mount large heavy 
satellite equipment. This ``work anywhere'' capability also makes 
OneWeb's terminals ideal for providing network connectivity during 
emergency situations.
    OneWeb's mobile terminals will enable first responders and families 
to have continuous connectivity regardless of the local cellular 
coverage. The mobile terminals can be placed on a vehicle and will 
include a small cell and WiFi to connect devices to the Internet. These 
mobile terminals will facilitate 100 percent coverage of the United 
States, augmenting Firestone's planned coverage.
    With regard to bringing people back online, OneWeb will produce 
easy-to-install terminals in high volume, much like any other consumer 
products. OneWeb will work with government and industry bodies to 
support adequate stocking and strategic placement of its terminals to 
support continued connectivity during terrestrial outages caused by 
emergencies or natural disaster events.

    Question 2. One issue this Committee has discussed at previous 
hearings is the issue of space debris. According to NASA, there are 
over 500,000 pieces of debris orbiting the Earth. This debris ranges in 
size from non-functional satellites, to fragmented debris as small as 
specks of paint. This debris travels around the Earth at speeds of up 
to 17,500 miles per hour, roughly ten times faster than a bullet. At 
these speeds, even the tiniest bits of debris can cause damage, and 
windows on the Space Shuttle were replaced because of damage from tiny 
debris. With the increasing launches of micro-satellites and decreasing 
launch costs it is now easier than ever to launch craft into low Earth 
orbit, and the problem is likely to increase many times over. Do you 
believe that current processes and regulations in the United States are 
sufficient to mitigate the increase in space debris? How can we work to 
address this issue?
    Answer. As mentioned above, unfortunately, the current processes 
and regulations are insufficient to adequately address the risk of 
space debris. The last significant U.S. regulation on space debris is 
more than 20 years old. The international treaty called the Outer Space 
Act was adopted fifty years ago, in 1967, long before the advent of the 
commercial space industry. This has contributed to a dynamic in which 
satellite technology and networks have evolved far beyond the 
regulatory regime created to address space debris issues. While many 
countries acknowledge this reality and are currently drafting papers 
addressing this topic, the current environment presents a unique 
opportunity for the U.S. to assume a leadership position and drive 
standards of excellence and space stewardship worldwide.
    As you have correctly pointed out, debris generation is a serious 
issue and just a single impact can cause thousands of new debris 
fragments which will damage entire altitudes for thousands of years. 
These impact and re-entry casualty risks can be minimized if Congress 
creates a regulatory regime empowered to enact simple common-sense 
rules that would address critical issues, such as preventing 
overlapping constellations or the launching of satellites manufactured 
with lower grade materials that do not burn up during re-entry and will 
impact the ground.
    Today there are still many altitudes available for safe, separated 
operation, and there are many ways to design satellites so they burn up 
upon re-entry. However, without meaningful regulations to ensure best 
practices, companies and countries can launch virtually any space 
object with no minimum orbit separation from others and no minimum 
design requirements.
    Space is the proverbial Wild West.
    To properly tame this frontier, Congress should consider the 
formation of a Space Debris Committee as a central figure to spearhead 
the protection of our space ecosystem and ensure it is maintained as an 
accessible resource for generations to come.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
